<html>
<title> - COUNTERNARCOTICS EFFORTS IN MEXICO AND ALONG THE SOUTHWEST BORDER</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
   COUNTERNARCOTICS EFFORTS IN MEXICO AND ALONG THE SOUTHWEST BORDER
=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION
                               __________

                           FEBRUARY 25, 1997
                               __________

                           Serial No. 105-14
                               __________

Printed for the use of the Committee on Government Reform and Oversight


                     U.S. GOVERNMENT PRINTING OFFICE
41-196                       WASHINGTON : 1997
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN H. SCHIFF, New Mexico         EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              TIM HOLDEN, Pennsylvania
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
JOHN SHADEGG, Arizona                DENNIS KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           ROD R. BLAGOJEVICH, Illinois
MARSHALL ``MARK'' SANFORD, South     DANNY K. DAVIS, Illinois
    Carolina                         JOHN F. TIERNEY, Massachusetts
JOHN E. SUNUNU, New Hampshire        JIM TURNER, Texas
PETE SESSIONS, Texas                 THOMAS H. ALLEN, Maine
MIKE PAPPAS, New Jersey                          ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
------ ------
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK SOUDER, Indiana                 THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            BOB WISE, West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN McHUGH, New York                ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVE LaTOURETTE, Ohio               JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Robert Charles, Staff Director and Chief Counsel
                     Michele Lang, Special Counsel
              Sean Littlefield, Professional Staff Member
                          Ianthe Saylor, Clerk
          Mark Stephenson, Minority Professional Staff Member
           Ronald Stroman, Minority Professional Staff Member







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 25, 1997................................     1
Statement of:
    Bonilla, Hon. Henry, a Representative in Congress from the 
      State of Texas; and Tony Castaneda, chief of police, Eagle 
      Pass, TX...................................................    24
    Constantine, Thomas A., Administrator, Drug Enforcement 
      Administration; Mary Lee Warren, Deputy Assistant Attorney 
      General, Criminal Division, Department of Justice; and 
      Douglas M. Kruhm, Assistant Commissioner, U.S. Border 
      Patrol.....................................................    41
    Gelbard, Robert S., assistant secretary of State, Bureau of 
      International Narcotics and Law Enforcement Affairs........     4
Letters, statements, etc., submitted for the record by:
    Bonilla, Hon. Henry, a Representative in Congress from the 
      State of Texas, prepared statement of......................    27
    Constantine, Thomas A., Administrator, Drug Enforcement 
      Administration, prepared statement of......................    48
    Kruhm, Douglas M., Assistant Commissioner, U.S. Border 
      Patrol, prepared statement of..............................    87
    Warren, Mary Lee, Deputy Assistant Attorney General, Criminal 
      Division, Department of Justice, prepared statement of.....    71









   COUNTERNARCOTICS EFFORTS IN MEXICO AND ALONG THE SOUTHWEST BORDER

                              ----------                              


                       TUESDAY, FEBRUARY 25, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Souder, Schiff, Mica, 
LaTourette, Barr, Barrett, Blagojevich, and Turner.
    Staff present: Robert Charles, staff director and chief 
counsel; Michele Lang, special counsel; Sean Littlefield, 
professional staff member; Ianthe Saylor, clerk; Mark 
Stephenson, and Ron Stroman, minority professional staff 
members; and Jean Gosa, minority administrative clerk.
    Mr. Hastert. The Subcommittee on National Security, 
International Affairs, and Criminal Justice will come to order.
    Good afternoon. I want to thank everybody for coming today. 
The subcommittee and Congress wrestle with an escalating 
national security threat posed by international drug 
trafficking. One country has been on our lips repeatedly over 
the last week; that country is Mexico.
    Today, we sit a few days away from the President's annual 
certification decision. Before next Monday, the President must 
either certify that Mexico is cooperating fully with the United 
States on all counternarcotics efforts or not cooperating 
fully.
    If he reaches the conclusion that they are not cooperating 
fully, he may, in the interest of continuing commercial trade 
and counternarcotics aid, grant Mexico a national interest 
waiver. Like last year, this decision is being closely watched, 
both domestically and internationally. Last year, President 
Clinton certified Mexico's counternarcotics efforts while 
decertifying Colombia's.
    Eleven days ago, the subcommittee concluded its first drug 
policy hearing of the 105th Congress and focused on Colombia's 
counternarcotics efforts. We learned in that hearing that 
decertification can spur action by sending a clear signal of 
deep U.S. concern. We also learned that decertification without 
a national interest waiver can hurt U.S. efforts to get 
counternarcotics aid to the target country.
    Today's hearing is focused on learning more about drug 
trafficking along our Southwest Border and Mexican cooperation 
in the war on drugs. Make no mistake about it, the four 
powerful, wealthy, violent Mexican drug cartels pose direct and 
insidious national security threats to this country and, in 
fact, to Mexico's own stable future. In fact, the Mexican drug 
trafficking organizations are as much a threat as the Colombian 
cartels have been up to now.
    This hearing is about Mexico and the land border we share, 
but it is also about the certification process itself. I think 
it is very plain that if, as expected, President Clinton 
certifies Mexico and decertifies Colombia, we will want to make 
sure that there is a fair and even-handed policy.
    Some may not think that would exist. A double standard that 
undermines the role of certification in our international drug 
strategy could be questioned by some. As the certification 
decision is pending, I cannot yet judge, but I fully expect 
that, if Mexico is certified and Colombia is decertified, a 
close examination of this decision by Congress certainly will 
follow.
    If this President's decision will be apparent to most that 
comp- eting interests in United States-Mexican relations trump 
the status of the United States-Mexican thrust on 
counternarcotics, let's be honest with the American people. 
There is an important economic link between us. We share a 
2,000-mile border and there is a con- tinuing need for Mexican 
cooperation to curb illegal immigration.
    But we also face another reality. The drug czar, the 
Mexican drug czar, was just arrested for links to the most 
dangerous drug trafficker in Mexico. Mexican officials 
apparently knew he had been associated with the trafficker for 
7 years, and they knew his assist- ant had been tied to the 
drug cartels. Adding injury, U.S. officials were not even told 
of his removal on drug charges until 12 days after that event.
    Now, here's the broader drug picture. Mexico not only 
shipped 400 tons of cocaine, 150 tons of methamphetamine, and 
15 tons of heroin into the United States last year, they have 
only extradited three persons, despite United States 
extradition requests in 1996 for more than 150 suspected 
felons. Mexican officials promised me and other Members of 
Congress that they would be installing three ground-based 
radars to halt air traffic last April. That promise is now a 
dead letter. There will, apparently, be no radars.
    While Mexico eradicates much opium poppy annually, it has 
blocked a blanket maritime agreement to stop traffickers, 
refused additional United States antidrug aid, refused to put 
an extra 20 DEA agents in Mexico, after we appropriated the 
money for this ef- fort, and now has told DEA agents that they 
cannot carry weapons when required to cross the United States-
Mexican border. Beyond this, there are certain deficiencies we 
cannot fully explore in an open session.
    In short, I am deeply disappointed, and I certainly hope 
the President is. In my view, while economic considerations 
should play in Mexico's favor, there should be a careful, 
honest debate on granting a national interest waiver to Mexico 
and maybe a possible decertification. There should be an honest 
parallel assessment of Colombia. That's what we are here for.
    Without anything further, we are rearranging our schedule a 
lit- tle bit to allow our Ambassador on International Narcotics 
and Law Enforcement Affairs to come before us today, Ambassador 
Gelbard.
    Before proceeding with our first panel, I am pleased to 
turn to my colleague, the subcommittee's ranking member, Tom 
Barrett, for any opening remarks he may have.
    Mr. Barrett. Thank you, Mr. Chairman.
    I thank you for holding this second hearing on an issue 
that is of vital importance to the American people, because 
there are few issues more important to the future national 
security of our country than controlling illegal drug 
trafficking. The cost to our Nation of illegal drug use is 
estimated at $70 billion per year, and every year illegal drugs 
cost 16,000 American lives.
    Our Southwest Border remains a principal route for drugs 
coming into the United States, so I thank the chairman for 
holding this hearing today. We will never solve the drug 
problem in our country without stopping the flow of drugs over 
this border. Mexico, unfortunately, remains the principal route 
for cocaine entering the United States, with 50 to 70 percent 
of the total cocaine produced in South America transported via 
Mexico.
    Mexico also supplied 20 to 30 percent of the heroin and 
about 70 percent of the foreign-grown marijuana last year, and 
Mexican traffickers dominate the growing methamphetamine trade 
in the United States. Criminal organizations are increasingly 
looking to Mexico as a venue for money laundering. The recent 
arrest of the Mexican drug czar, Gen. Guttierez-Rebollo, 
demonstrates that corruption continues to be a major problem 
for Mexico.
    I think that the point that the chairman made on the 
serious question of how we look at Colombia and how we look at 
Mexico are issues that we have to explore, and I am pleased 
that the President is exploring them carefully. I also concur 
with the chairman that the issue of our economic ties to Mexico 
weighs into this equation, and I will be very interested in 
hearing our panels today.
    Thank you.
    Mr. Hastert. Thank you.
    I would like to welcome Assistant Secretary of State for 
International Narcotics and Law Enforcement Affairs, Ambassador 
Bob Gelbard. Because we are trying to work our schedule around 
his very busy schedule, I would ask that all other opening 
statements be submitted for the record.
    Any objections?
    [No response.]
    Mr. Hastert. Without objection, so ordered.
    Ambassador Gelbard, we had you testify before us last week 
in the Colombia hearing. We appreciate your being here today, 
and we know it is certainly a busy time of year for you, 
especially concentrated in these next weeks or so.
    Ambassador, if you would stand and raise your hand, the 
committee's rules require me to swear you in.
    [Witness sworn.]
    Mr. Hastert. Let the record show that the witness responded 
in the affirmative.
    Ambassador.

 STATEMENT OF ROBERT S. GELBARD, ASSISTANT SECRETARY OF STATE, 
 BUREAU OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS

    Mr. Gelbard. Thank you, Mr. Chairman, members of the 
subcommittee. Good afternoon.
    Thank you for accommodating my schedule. As you can 
imagine, in the days coming up to certification, we are 
extremely busy, and I appreciate your understanding.
    Mexico-based drug trafficking organizations take advantage 
of the 2,000-mile border between Mexico and the United States 
and the massive flow of legitimate trade and traffic to smuggle 
hundreds of tons of South American cocaine, thousands of tons 
of Mexican-grown marijuana, tons each of heroin and 
methamphetamine precursors, and large quantities of 
pharmaceuticals to the United States each year.
    Many of these organizations operate extensive distribution 
networks within the United States. Mexico-based trafficking 
organizations now dominate the production and distribution of 
methamphetamine in the United States, a particularly dangerous 
drug with alarming abuse projections across the country. Mexico 
is also one of the most significant money laundering centers in 
the hemisphere.
    From a foreign policy perspective, the severity of the 
threat posed to the United States by drug trafficking 
organizations operating out of Mexico makes this one of the 
most important issues on our agenda with Mexico, an agenda 
which is arguably one of the broadest we have in the world.
    Counternarcotics cooperation with Mexico is obviously an 
essential component of our national drug strategy. Mexican 
President Ernesto Zedillo, in whom we have the highest level of 
trust and confidence, has declared the drug threat and related 
official corruption to be the principal national security 
threat to his nation. His decisions and actions have supported 
this declaration, and he has underscored the importance of the 
U.S. partnership in his government's antidrug effort.
    As we saw last week, President Zedillo moved quickly to 
remove from office the new national antidrug coordinator after 
an internal investigation revealed ties to the nation's most 
powerful drug trafficker. The investigation is continuing, and 
36 officials from the drug commission are now apparently 
implicated.
    While the revelations of corruption by individuals in such 
sensitive positions is a matter of grave concern to us, the 
Government of Mexico's quick response demonstrated President 
Zedillo's resolve to identify, remove, and punish compromised 
officials, even at the risk of embarrassment to his own 
administration.
    The United States and Mexican Governments are working to 
build a counterdrug partnership on the foundation of the shared 
perception of the threat and our mutual determination to combat 
it. It was in this spirit that the United States and Mexico 
established a high-level contact group on narcotics control a 
year ago, to explore joint solutions to the shared drug threat, 
to coordinate the full range of narcotics issues, and to 
promote closer law enforcement cooperation.
    We will seek, with this sense of partnership, to aid Mexico 
to address the institutional weaknesses that permit such 
serious security breaches to occur and persist, and to 
strengthen its law enforcement capacity through training, 
material, and technical assistance. Mexico is one of our most 
important allies in the international struggle against 
organized crime and drug trafficking. We need each other, and 
we are determined to make this partnership work.
    The Mexican Government has prepared a comprehensive 
strategy, encompassing efforts to attack the drug trafficking 
organizations, combat money laundering and chemical diversion, 
eradicate drug crops, interdict drug shipments, and increase 
public awareness. The Mexican Government intensified its 
investigations of major narcotrafficking organizations, 
including the Juarez Cartel of Amado Carrillo-Fuentes; the 
Tijuana Cartel, headed by the Arellano-Felixes; the Caro-
Quintero Organization; and the Gulf Cartel, previously directed 
by Juan Garcia-Abrego.
    However, persistent and widespread official corruption, 
frequent changes in personnel, lack of institutional 
capabilities, and failure to follow through on government 
commitments have combined to hinder Mexico's ability to 
implement its antidrug strategy effectively or to conclude its 
organized crime investigations.
    In its anticorruption efforts, the Mexican Government 
dismissed over 1,250 Federal law enforcement officers and 
technical personnel, and indicted two former senior Mexican 
officials on corruption and money laundering charges. It also 
charged a current Under Secretary of Tourism with official 
corruption.
    In 1996, Mexican authorities arrested a number of major 
traffickers, including Juan Garcia-Abrego, head of the Gulf 
Cartel and one of the FBI's 10 most wanted fugitives; Jose Luis 
Pereira Salas, linked to the Cali and the Juarez Cartels; and 
Manuel Lopez-Rodriguez, a major maritime operator linked to 
Jose Castrillon.
    The Government of Mexico expelled Garcia-Abrego and Pereira 
Salas to the United States. Garcia-Abrego was convicted in 
Houston on 20 counts, sentenced to 11 life terms, and fined 
$128 million, with $350 million in forfeited assets. Pereira 
Salas is awaiting trial in Miami.
    The Mexican Congress passed penal code reforms to 
criminalize money laundering and establish some controls on 
chemical diversion. It also passed an organized crime bill 
which authorizes use of modern investigative techniques such as 
electronic surveillance, witness protection, and prosecution 
for criminal association and conspiracy.
    The Mexican Government acknowledged the need to strengthen 
its counterdrug capabilities and signed several technical and 
material support agreements with us, as well as an operational 
coordination agreement for the border task forces. Interagency 
cooperation among Mexican antidrug police and military forces 
improved drug-related arrests and seizures of cocaine, heroin, 
and marijuana increased over 1995. Eradication results were on 
a par with 1995 but continued the trend toward reduced net 
production.
    Mexican authorities seized 23.8 metric tons of cocaine, 363 
kilos of heroin, more than 1,000 tons of marijuana, uncovered 
20 clandestine drug laboratories, made over 11,000 drug-related 
arrests, and eradicated 22,769 hectares of cannabis and 14,671 
hectares of opium poppy.
    Bilaterally, the return of fugitives, money laundering, 
chemical diversion, and military-to-military relations were 
among our highest priorities for bilateral cooperation. The 
extradition relationship, while still very far from ideal, 
improved significantly last year. Mexico extradited 13 
fugitives to the United States, including three individuals 
with claims to Mexican citizenship, for the first time. It 
expelled a number of other fugitives, including Garcia-Abrego 
and Pereira Salas.
    The two nations made major strides in forging a more 
productive military-to-military relationship, including 
counterdrug cooperation, training, and technical assistance. 
Bilateral cooperation on money laundering controls also 
improved. Technical working groups focused on specific ways to 
improve national and bilateral effectiveness in areas such as 
money laundering, chemical control, demand reduction, arms 
trafficking, and so forth.
    However, there remain many areas where Mexico's counterdrug 
performance can and must be improved and where bilateral 
cooperation can be improved. These areas constitute the agenda 
for our discussions in the coming months and the focus of our 
joint efforts.
    The arrest of Gen. Gutierrez-Rebollo and subsequent 
dismissal of 36 of his deputies belie previous assumptions that 
corruption was largely limited to operational police levels. 
This illustrates, vividly, the need for major system-wide 
reform and integrity controls. Criminal justice system reform 
must be a high priority, both for Mexico's antidrug efforts as 
well as for more meaningful bilateral cooperation.
    The organized crime bill must be implemented fully, with 
appropriate training provided to law enforcement, 
prosecutorial, and judicial personnel. Organized crime task 
forces have been established but not fully funded or supported.
    Personnel rotate too frequently. U.S. liaison personnel 
have not been provided appropriate official status or adequate 
provisions for self-defense, as you mentioned, Mr. Chairman. 
This must be immediately addressed and resolved satisfactorily. 
Smooth integration of the new military antidrug response teams 
into the existing interdiction framework and clear command-and-
control structures must be effected.
    The United States Government is seeking to assist the 
Mexican Government combat corruption through technical 
assistance and training, particularly in developing trusted 
units and professional responsibility. We are likewise working 
to help the Mexican Government recruit, train, and equip 
special investigative units which can become trusted partners 
of United States law enforcement.
    The United States welcomes the improvements in extradition 
of fugitives, but there are still long backlogs of pending 
cases. We would also like to see extradition of Mexican drug 
fugitives to break the perception that they can act with 
impunity in Mexico and evade justice through abuse of their 
citizenship.
    There are still major gaps in Mexico's interdiction 
program; specifically, to counter fast-moving cargo jets and 
maritime trafficking. The existing air interdiction program 
suffers inadequate funding and logistical support problems. 
Bilateral maritime cooperation has been sporadic and needs to 
be improved.
    There continues to be a problem of diversion or fraudulent 
prescription of pharmaceuticals such as Rohypnol, the so-called 
date rape pill, in Mexico, despite United States Government 
efforts to raise awareness of this problem.
    To make its new money laundering legislation effective, the 
Mexican Government needs to implement suspicious and currency 
transaction reports with mandatory penalties, something we have 
been promised.
    While there has been progress in controlling precursor 
chemicals, largely because of a concerted effort by the United 
States to raise the Mexican Government's awareness about the 
growing methamphetamine crisis in the United States, basic 
controls are needed on the essential chemicals that are used to 
manufacture cocaine, heroin, and other illicit drugs.
    As I said earlier, the United States Government is prepared 
to work forcefully with the Government of Mexico to assist in 
accomplishing these objectives. We, of course, need your 
support in providing the necessary resources and political 
support for our efforts, and we welcome what you have done in 
this last year.
    Thank you for your kind attention. I will be happy to take 
your questions.
    Mr. Hastert. Thank you, Mr. Ambassador. I appreciate your 
thorough statement and certainly your hard work on this issue. 
We will now move quickly through one round of questions because 
of your time restraint, and I will begin.
    First of all, in your statement, just listening to it, why 
isn't adequate Mexican protection for our law enforcement 
personnel a condition of United States certification of Mexico? 
Maybe it is, but I didn't hear it in your statement.
    Mr. Gelbard. Well, in fact, in my statement I didn't get 
into the issues we have discussed with Mexico regarding 
certification. But the questions regarding immunities and the 
ability to use weapons for American law enforcement officials 
who are working with Mexican counterparts is a fundamental 
priority for the United States Government.
    Last week, when Foreign Secretary Gurria was here in 
Washington, this was one of the very top issues then Acting 
Secretary of State Tarnoff raised, and I think also was raised 
as one of the fundamental issues by the Attorney General. So, 
we consider this one of our very top priorities. We have been 
given assurances that this will be resolved urgently, and we 
look forward to that.
    Mr. Hastert. Mr. Ambassador, in your opinion, is the United 
States really and truly receiving full cooperation from the 
Mexican police and military?
    Mr. Gelbard. Mr. Chairman, one of the basic problems that I 
alluded to in my statement is that there is a serious problem 
that Mexico recognizes, in terms of lack of institutional 
capabilities. I feel we have strong cooperation from President 
Zedillo. The problem is the lack of strong capabilities on the 
part of Mexican law enforcement. This is what needs to be 
resolved.
    Mr. Hastert. Let me ask you another issue on extradition. 
We have seen over 150 extradition requests, and most of those 
are still pending. Mexico has extradited only three nationals 
to the United States, in 1996, I understand. Is that full 
cooperation, or what are the problems involved in that 
situation?
    Mr. Gelbard. In terms of detail, I will defer to my 
colleague, Ms. Warren, from the Justice Department. But let me 
say, first, the good news was that, for the first time in what 
I understand is history, Mexico did decide to extradite 
nationals last year. We are, however, concerned, as I said, 
that first we have a long list of others, such as Amado 
Carrillo-Fuentes, whom we consider to be an extremely high 
priority, who have not been extradited.
    Second, we remain concerned that the condition of having 
people extradited only under exceptional circumstances often 
means that people who claim Mexican citizenship, real or 
otherwise, can escape sentences commensurate with their crimes.
    Mr. Hastert. These are people who also hold American 
citizenship; right, in many cases?
    Mr. Gelbard. In come cases. But in the case of Juan Garcia-
Abrego, who apparently did have dual citizenship, the Mexican 
Government showed great and serious determination by expelling 
him to the United States. He is, of course, one of the leading 
traffickers in the world.
    Mr. Hastert. Mr. Ambassador, I guess this is more a comment 
than a question. We had very fine testimony on your behalf last 
week when we looked at the Colombia situation. I, again, 
appreciate, with your tough schedule, your being here today. 
Can you give us assurance that both those countries will be 
looked at in an even-handed way? I think that's one of the 
things that we're concerned about.
    Mr. Gelbard. Both of those countries are being looked at in 
an even-handed way. There are serious ongoing discussions still 
being held about all the certification issues. No decisions 
have yet been made, but they are being looked at in an even-
handed way, absolutely.
    Mr. Hastert. Thank you. I'm going to defer to the gentleman 
who is the ranking member, Mr. Barrett from Wisconsin.
    Mr. Barrett. Thank you, Mr. Chairman.
    Mr. Ambassador, it's good to see you back. I appreciate 
your taking the time. I realize it's a very busy week for you. 
When we last met, some 10 or 11 days ago, that was before the 
public revelation, either to the American Government or to the 
American public, about Gen. Gutierrez.
    What has been our response to the delay, apparently an 11-
day delay between the time he was taken into incarceration and 
we learned about it? Am I correct in my assumption that the 
State Department and the U.S. Government first learned about 
this some 11 days after his arrest?
    Mr. Gelbard. That's correct. The U.S. Government learned 
about this last Tuesday. Actually, we learned about it 
initially from press reports coming out of Mexico that were 
later confirmed by the Mexican Government. The Mexican 
Government has told us that, when they first began to suspect 
corrupt activity on Gen. Gutierrez-Rebollo's part, they wanted 
to maintain secrecy until they were able to actually determine 
that it was true. So for that reason, they decided to hold a 
confidential investigation.
    Once they were able to determine that, indeed and very 
unfortunately, obviously, it was true, they did inform us in a 
variety of ways at high levels.
    Mr. Barrett. During the period between which he was 
incarcerated and the period which we learned about his 
incarceration, was there a continuing flow of information 
coming from the United States to him or his office? Obviously, 
he was incarcerated, so he wouldn't get it directly, but to his 
office. I'm trying to measure the damage that was done during 
that 10- or 11-day period.
    Mr. Gelbard. I do not know.
    Mr. Barrett. In your view, was the failure or the lack of 
notification from the Mexican Government appropriate?
    Mr. Gelbard. It's a hard call on the part of the Mexican 
Government. I think they should be commended, obviously, for 
taking very seriously the information that began to develop 
about his corruption, acting on it expeditiously, in spite of 
the fact that it was obviously a major embarrassment to them. 
The statement issued by Secretary of Defense Cervantes was, I 
think, exemplary, in taking responsibility for this and acting 
on it quickly.
    It's hard to second-guess their decision to act with some 
secrecy because they acted effectively. What is clear is that 
now needs to be an experience upon which to build. There has to 
be serious action by the Mexican Government in terms of 
examining, with extraordinary scrutiny, law enforcement 
officials: background checks, financial background checks, 
perhaps even polygraphing people to ascertain that the degree 
of corruption that we have seen, up to and including Gen. 
Gutierrez-Rebollo and in the case of lots of other people at 
lots of other levels, is not repeated and is avoided in the 
future, and action is taken against them.
    Mr. Barrett. The irony here--and, again, I juxtapose this 
with the hearing we had 10 days ago--on Colombia, it seems we 
have a situation where the President or the executive branch is 
causing us problems, but the military and the police seem to be 
more responsible. Mexico seems to be almost a mirror image of 
that, in that we have full compliance, it appears, from the 
President, and the problems are coming from the police, and 
that's why they started moving to the military. Now it's clear 
that there are some serious problems in the military.
    In the scope of certification, do you think intent is more 
important, or do you think that the proof should be in the 
pudding?
    Mr. Gelbard. Well, we are, obviously, very interested in 
both. There has to be serious intent. The Mexican Government 
clearly recognizes that they have a long way to go, in terms of 
developing the institutional capabilities. The good news of 
this incident is that they did take action, and they took 
action quickly.
    In Colombia, I had to be the one to go to the Colombian 
Government and ask them to fire the commissioner of police 2\1/
2\ years ago. I would welcome the idea of President Samper 
taking a polygraph exam.
    It's very clear that the Mexican Government has to take 
serious action to examine law enforcement officials at all 
levels, examine people who are taking positions of 
responsibility the way we do, and really examine these very 
carefully, including such things, as I say, financial checks 
and other kinds of background checks, and even polygraphing.
    Mr. Barrett. I realize that the administration has not made 
a determination on certification of Mexico, but it strikes me 
that the certification or the lack of certification, but with a 
waiver, would be a way for us to send a message to Mexico that 
we mean business. Again, I realize that we are getting 
cooperation from the President there. I don't know how else we 
can send the message, though, to other public officials in 
Mexico that we are serious about the drug problem.
    I don't know if you want to comment on that.
    Mr. Gelbard. I would just say that we have seen, on this 
day compared to this day a year ago, I think, some substantial 
and important changes in Mexico, in terms of them moving 
forward in cooperation with us. There clearly is a long, long 
way to go. This is not something which is going to be resolved 
in a year or even 2 years. This is going to be something for 
the medium and the long term. There clearly is a major 
corruption problem at all levels: Federal, State, and local.
    We are seeing scandals that are opening up repeatedly at 
lots of different levels and lots of different places. They 
need to be dealt with for Mexico's own national security. I 
think that's basically what it comes down to.
    Mr. Barrett. One final question: Do you think certification 
with a waiver for national interest would ignite American 
businesses to be more interested in this issue?
    Mr. Gelbard. I really, if you will excuse me, would rather 
not talk about certification, even hypothetically, at this 
point.
    Mr. Barrett. All right.
    Mr. Gelbard. Thank you, sir.
    Mr. Barrett. I have no further questions.
    Mr. Hastert. I thank the gentleman. I now turn to the vice 
chairman, from Indiana, Mr. Souder.
    Mr. Souder. Hi, how are you again? I appreciate your coming 
back today. I've got a couple of concerns I wanted to express 
right off the top. One is that I understand it's difficult. 
Anybody who has at all looked at this issue in trying to clean 
up a long past history--when we visited Mexico and had the 
chance to talk with President Zedillo and their Congress and 
others--it's clear, at least from what you can tell from the 
superficial personal relationships, that there is a deep 
commitment to try to do this.
    The problem is that we keep hearing, ``It's coming. It's 
coming,'' and it's like a constant back to the future again. 
Ultimately, at some point, we have to measure by the actions in 
front of us. This is a little bit like your spouse--you said 
earlier that, well, at least they have been very honest, and 
they have cleaned house. It's a little bit like your spouse 
coming to you and saying that they were actually married to 
someone else earlier before they married you, and you are proud 
or pleased that they were honest enough to tell you that, but 
the fact is still the fact.
    The drug czar, or the equivalent of their DEA, was on the 
payroll of the cartel. Now, one of the things--I have just 
finished reading the book, ``Bordering on Chaos,'' which is a--
as many books have--have a lot of different controversial 
things in them, and may have different parts of it--in its 
veracity.
    But I was very intrigued in one political section, because 
one of the things that is very critical in this whole debate 
is, it's clear that the Colombian police are going after and 
are dying fighting narcotics, but we have questions about the 
President. In Mexico, we have questions about the police, but 
believe that the President and certain leaders are trying to 
clean it up, although we have seen the problem of Clausio 
getting killed, of multiple murders, of now the drug czar.
    In that book, as a politician, what was very intriguing to 
me was the process that Zedillo, at least in this book, was 
claimed to have been nominated, and the key person was the 
Governor, Sonora Beltrones, and that it talked about his 
closeness to President Zedillo, and how he had maneuvered to 
use the Clausio tape to see that Zedillo was nominated.
    Now, I don't know whether that's all true, but it is 
especially interesting since Sunday we saw pictures and 
stories, and again today, from the New York Times, calling into 
question, which is denied by the Governor, that he has been 
investigated, as well. The President of Mexico has said there 
is no ongoing investigation of any Governors.
    When we met with the President directly, what he told us--
and as a Reagan conservative I found this comforting--that he 
wanted to delegate more authority to the Governors and wanted 
to decentralize power, but that that was complicating things in 
the drug issue.
    Now, I'm not saying--because I take President Zedillo at 
his word--but if this person is indeed--if he's trying to 
transfer power to the Governors, if this person has been 
critical in his support, if people in his administration are 
having problems, at what point do we say that there is a 
problem in the Government of Mexico, in addition to their 
police force, and why aren't they willing to investigate some 
of the people in their government itself, such as the Governors 
of Mexico? Is it political? Have you asked them that question? 
Where do you see this heading?
    Because, at some point, we have to not just--because I, 
personally, from talking to him, have no reason to believe 
President Zedillo isn't completely honest with us, but that's 
what we heard about the drug czar, too. Are you asking them 
these questions? Do you want them to pursue additional 
investigations of their Governors? Are you pushing them, or are 
you just making public statements that you hope he's above all 
this?
    Mr. Gelbard. We have raised concerns about individuals with 
the Government of Mexico over time. There are individuals about 
whom we have been very concerned, deeply concerned, and we have 
passed on to senior government officials of Mexico their names. 
Under certain circumstances, it's certainly possible to share 
information with them. We have concerns about Governor 
Beltrones, and we are studying that--we are continuing to study 
that.
    We do try, whether it's Mexico or Colombia or other 
countries, when we have knowledge or strong reason to believe 
that individuals have been or are involved in drug trafficking, 
we have a number of ways to try to convey that information, to 
try to convey our knowledge. We continue to do that.
    Mr. Souder. Does it concern you that the President says he 
won't investigate the two Governors or that the Governors 
aren't under investigation?
    Mr. Gelbard. Well, I would be concerned under any 
circumstances when anybody says they are not interested in 
knowing information, but I think it's important to ultimately 
see what information can be conveyed.
    Mr. Souder. Because it's politically very explosive where 
the Governors of the territories are often heads of the party 
in those areas, and at the same time, the criteria for the 
differentiation of Mexico and Colombia has been that we trust 
the government. We should be, at the very least, pressing that 
government as hard as we can, if that's the criteria, because 
one of the questions is, would the Mexican Government be 
willing to submit their highest officials to vetting?
    If that's the premise, and that's what you've leaned on in 
both these hearings, that Samper and the government can't be as 
trusted--I mean, we can get into the police question, but we 
have a fundamental differential being based on whether we trust 
the government right now.
    Mr. Gelbard. No, actually, we have serious suspicions or 
actual knowledge of corruption about a lot of officials in the 
Colombian Government, too, and we try to deal with it in 
relatively similar ways. Our interest is ultimately 
effectiveness. We are deeply worried about corruption at senior 
levels, as you are, Congressman. The issue is, the ultimate 
question, in my mind, is: How do we get the kinds of results to 
try to assure that there will be effective rule of law and 
action resulting in the kinds of results that Mexico needs and 
that we need?
    Mr. Souder. Understanding the difficulty with immigration 
and trade questions, is there nothing short of decertification 
to send an even stronger signal to Mexico?
    Mr. Gelbard. I'm not quite sure what you have in mind.
    Mr. Souder. In other words, is there something short--in 
standards and conditions that we can put on this process--is 
the administration looking at things short of just either 
certifying or decertifying?
    Mr. Gelbard. Once again, I really, if you will excuse me, I 
really don't want to get into any hypothetical issues about 
certification.
    Mr. Souder. OK. It may not be completely hypothetical very 
soon. Thank you.
    Mr. Hastert. Thank you. At this time we turn to one of our 
new Members, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    One question that I had come to my mind was to inquire as 
to what degree our drug war intelligence has been compromised 
by virtue of what we have discovered about Gen. Gutierrez. 
Obviously, he had been in the job only a short period of time, 
but I gather that, in his position, he received briefings and 
had conferences with folks on our side of the table about joint 
efforts to combat drugs.
    It would seem that the potential exists, not only for our 
entire drug war strategy to have been revealed to those that we 
would find it most abhorrent to have such disclosed to, but 
that it also could have endangered some lives of those who 
fight the war against drugs on our side. To what degree do you 
consider that a breach of our national security?
    Mr. Gelbard. We are very worried about it, for precisely 
the reasons you cited, Congressman. The administration is 
conducting an assessment of that right now, which I hope will 
be concluded shortly. I think that you might want to raise this 
with my friend Tom Constantine, the Administrator of the DEA 
when he testifies. This is something that we are examining with 
great seriousness right now, between the law enforcement 
community and the intelligence community.
    Mr. Turner. Does it not seem that, in light of the 
potential threat to actual life that may have occurred, by 
virtue of the disclosures that may have been made to Gen. 
Gutierrez, that it would prompt us to deal perhaps much more 
firmly with the Mexican Government in such a circumstance than 
perhaps we otherwise would?
    Mr. Gelbard. Yes. Obviously, when we see compromise of 
sensitive information, if indeed such information was passed on 
to him or any of his other colleagues, as I have to imagine it 
was, then we are seriously concerned, because there is the 
potential for endangering American lives. As you may be aware, 
one American DEA agent was tortured and murdered in Mexico 
several years ago.
    What it means is we have to be even more careful about the 
information we pass, how we pass it, who the recipients are, 
and under what circumstances they are operating. This is 
exactly the reason why we feel it's so important to be assured, 
on a continuing basis, that the counterparts that we work with 
and with whom we want to work show the highest integrity in 
their performance.
    Mr. Turner. I would like to request, Mr. Chairman, on 
behalf of myself--and I hope the committee would request--that 
once the report is concluded regarding the full ramifications 
of the Gutierrez situation, that this committee would be 
advised regarding the findings of your report, Mr. Ambassador.
    Mr. Gelbard. We would be happy to share that with you, sir.
    Mr. Turner. Thank you very much, Mr. Chairman.
    Mr. Hastert. The gentleman from New Mexico, Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman. Mr. Chairman, I first 
want to say, as a representative from a Southwestern State, I 
especially appreciate your holding this hearing.
    Let me say, Mr. Ambassador, I want to say up front that I 
believe I am a strong proponent of strong ties between the 
United States and Mexico--for that matter, the United States 
and Canada, in particular. Because I believe that, as our 
closest neighbors, anything that affects these two countries 
will ultimately and inevitably affect the United States.
    For that reason, I voted for NAFTA, because I think we need 
to look at global competition on a global basis. I see the 
future world economy based upon regional cooperation in 
competition with other regions. More particularly, I supported 
the President's decision to support a loan to the Government of 
Mexico during their peso devaluation crisis, because I think 
economic turmoil in that country, again, ultimately will affect 
this country.
    I am very proud of that support of Mexico as, again, along 
with Canada, our closest neighbors. However, I have always felt 
that that cooperation should be seen as a two-way obligation. 
In other words, it seems to me that for all the reasons I think 
the United States should have close cooperation with Mexico, 
Mexico should see itself desiring close cooperation with the 
United States. I don't know that, in all cases, I've seen that.
    The example we're talking about now, of course, is the flow 
of narcotics. I want to begin with the subject that my 
colleague, Mr. Souder, brought up during his questioning.
    We have been promised by the Mexican Government, over a 
number of administrations, over a number of years, back, 
certainly, well before I got to Congress, that there would be 
improvements in eradicating corruption in the law enforcement 
apparatus in Mexico. No country is free of corruption, but 
there has been a longstanding concession that theirs is a very 
significant problem--and yet we seem to be getting these 
promises, and I'm not sure what we're getting in the way of 
action.
    I think the question is, is Mexico really making progress 
in terms of assisting this country in the fight against drugs, 
given the percentage of drugs that illegally seem to get across 
our border from originations in Mexico? I would like you to 
respond to that, if you would.
    Mr. Gelbard. I fully agree with you that this has to be a 
two-way street in all aspects of the relationship. We benefit 
from trade with Mexico through NAFTA, and so do they. 
Obviously, it is critical to have the closest possible ties. It 
is for that reason that I fully agree with you, too, that the 
relationship on counternarcotics has to be a two-way street and 
has to be the most fluid two-way street possible.
    I think part of the problem you have identified is the 
problem of attacking corruption in a serious way, and aligned 
with that is the issue of building institutional capabilities 
so that there are strong mechanisms to deal with this problem.
    The corruption problem has existed in Mexico for a long 
time. It's not just narcotics-related; it's in other areas, 
too. I don't consider myself naive; I don't think anybody does. 
I think President Zedillo is serious in trying to attack this 
problem. That's why he was willing to take the very, very hard 
decision to publicly remove Gen. Gutierrez-Rebollo and a lot of 
his associates. That's a tough decision in any country.
    Trying to develop these institutions in a serious way is 
also very tough. We are frustrated. You are absolutely right, 
we are frustrated by the slowness with which this is 
developing. Meanwhile, there has been some good news last year 
that I mentioned in my statement. We have seen progress, but 
all these things take a while to develop.
    Obviously, it is immensely frustrating, because we see 
corruption happening on a regular basis, on a frequent basis. 
My colleagues in the law enforcement community probably see it 
even more frequently than I. So we've got to have a more fluid 
two-way mechanism. I think the establishment of this high-level 
contact group has helped somewhat, but we've clearly got to 
have more.
    It's not just us, though. It's got to be Mexico that needs 
it, too, precisely because President Zedillo himself has 
identified this as their No. 1 national security problem and 
something that really is hurting Mexico dramatically.
    Mr. Schiff. How do you explain the fact that Gen. 
Gutierrez-Rebollo was able to function for so long and at an 
increasingly higher and higher level in the Mexican Army, and 
then get the appointment to be their equivalent of our drug 
czar position? There wasn't an inkling of suspicion on the part 
of Mexican authorities that occurred that might have caused 
someone to think twice before making this appointment?
    Mr. Gelbard. Obviously, I can't explain it, and I won't 
explain it. I would point out, we didn't do such a great job 
with Aldrich Ames and some recent other people, either.
    But this is something that, obviously, is part of what I 
mentioned before, in terms of the need to have much more 
scrupulous attention paid, as part of this institution-
building, in terms of background checks, in terms of internal 
affairs units which investigate people on an ongoing basis, in 
terms of financial disclosure statements. Maybe people won't 
reveal all their wealth, but it might have come out that he was 
living in an awfully nice house, perhaps beyond his means.
    There needs to be better mechanisms built in. When we do 
police training, we try to build in, as an intrinsic element, 
the idea of internal affairs units to investigate corruption. 
The very people who are in those internal affairs units are 
polygraphed on a continuing basis. This is the kind of thing, 
among the many kinds of things, that clearly needs to be done 
on an urgent basis in Mexico.
    Mr. Schiff. One last question: To the best of your 
knowledge, did our Government have any suspicions, serious 
suspicions, about Gen. Gutierrez-Rebollo? I am obviously 
referring to the fact that Gen. McCaffrey, our own drug czar, 
was rather lavish in his praise for the General, which, of 
course, created an embarrassment for our Government, as well, 
when these facts came out. Did we have any forewarning that 
there could be a problem here?
    Mr. Gelbard. I can't speak to other agencies. I certainly 
did not, and I don't believe the State Department did. 
Obviously, Gen. McCaffrey didn't. I am reading now in the press 
that there were some concerns in some agencies. We certainly 
hadn't heard it.
    Mr. Schiff. Thank you very much, Mr. Ambassador.
    I yield back, Mr. Chairman.
    Mr. Hastert. I thank the gentleman from New Mexico.
    Mr. Ambassador, I just want to ask you one quick question 
before I yield to my colleague on the other side.
    You, in fact, last year, stepped back from some of the 
hands-on policy development; is that correct?
    Mr. Gelbard. I'm not sure I know what you mean.
    Mr. Hastert. Were you as intense this year in working on 
Mexican policy as you were in years past?
    Mr. Gelbard. I personally?
    Mr. Hastert. Yes.
    Mr. Gelbard. Yes, I've been very involved. With Gen. 
McCaffrey's designation as the Director of National Drug 
Control Policy, he decided that, because Mexico was the 
fundamental concern, he would take the lead on these issues, 
and I and my staff have worked very closely to support him.
    Mr. Hastert. So a lot of the briefings that went on didn't 
necessarily come out of your office, what may have been 
disbursed and shared with other offices, that responsibility?
    Mr. Gelbard. That's correct.
    Mr. Hastert. Thank you.
    The gentleman from Illinois, Mr. Blagojevich. Is he here? 
I'm sorry.
    From Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Bob, I'm a little bit dismayed by really our lack of 
intelligence regarding the Gutierrez problem. Mr. Schiff spoke 
about it, but we had our drug czar saying, when Gutierrez was 
named the head of the National Institute to Combat Drugs in 
Mexico, our drug czar said, he is, ``. . . a guy of absolute, 
unquestioned integrity.''
    At a press conference January 29, just less than a month 
ago, our drug czar was lauding the integrity of Gen. Gutierrez 
as ``an honest man and a no-nonsense field commander.'' I'm 
really wondering what's going on with U.S. intelligence, both 
the information that you have at the State Department and 
information that is provided to our agencies. Do you think 
we're up to snuff? Do you think we're doing what we should be 
doing to know who's doing what in this arena?
    Mr. Gelbard. Well, obviously, we wish we had known more. If 
there was information, obviously, Gen. McCaffrey and I both 
wish we had known it. I had a brief encounter with the new 
attorney general of Mexico at the time of his visit and with 
Gen. Gutierrez-Rebollo.
    Mr. Mica. That was my next question. Did you meet with
Gutierrez?
    Mr. Gelbard. My principal deputy and I had a working 
breakfast with them, and I pointed out to Attorney General 
Madrazo that he was the sixth attorney general I've worked with 
in 5 years. I pointed out to Gen. Gutierrez that he was the 
seventh drug czar I've worked with in 5 years, and I said I 
really hoped there would be some continuity. I guess there 
wasn't.
    Mr. Mica. Well, my next question would be, you met with
Gutierrez, and you said it was a working breakfast; I'm curious 
as to how much Gutierrez knew about our national drug strategy 
and policy, both from the information you provided him or our 
other folks.
    Mr. Gelbard. In the discussion I had with Attorney General 
Madrazo and Gen. Gutierrez and a number of other people, there 
was nothing sensitive discussed at all. The circumstances were 
not appropriate.
    Mr. Mica. Are you aware of his being provided confidential 
briefings?
    Mr. Gelbard. I don't have first-hand knowledge of that. 
I've heard that he was provided with some classified 
information. But as I said to Congressman Turner, what's 
happening now is that there is an assessment being made, and we 
are looking at this. The State Department never briefed him 
during his visit. We never provided him with any confidential 
information.
    Mr. Mica. You're not aware of other confidential briefings 
at this point? What disturbs me even more is, Mexican officials 
say that the relationship between Gutierrez and Fuentes, 
reputed to be Mexico's most powerful drug lord, dated back as 
far as 7 years, and yet your agency knew nothing about the 
problems with Gutierrez; is that correct?
    Mr. Gelbard. That's right. We don't collect intelligence, 
as you know, Congressman.
    Mr. Mica. Well, I'm also becoming a little bit concerned. 
Last hearing, on the 14th I think it was, we heard that there 
were only two honest people left in Colombia. Today, I'm 
beginning to think there's only one honest individual left in 
Mexico, the President, that we can trust, as far as leaders. Is 
this a false impression?
    Mr. Gelbard. Yes, I think on both counts. Obviously, on 
Colombia, we tend to talk about Prosecutor General Valdivieso 
and Gen. Serrano, because they are principal points of contact 
in terms of operations.
    Mr. Mica. Well, who can we trust in Mexico besides Zedillo?
    Mr. Gelbard. There are a substantial number of people in 
whom we have confidence in Mexico.
    Mr. Mica. It's my understanding that last week they moved 
the military into the Southwest Border of the United States in 
Mexico, and they are going to now replace those Mexican drug 
agents; is that correct?
    Mr. Gelbard. Let me answer your previous question. We 
believe that President Zedillo is trying to put serious, honest 
people in the government. He's trying to show effectiveness, 
and we saw some of those results last year. It's not easy for 
him, particularly because of the lack of background information 
and the ability to develop this, but there are serious, 
dedicated people in Mexico, without any question.
    In terms of the army being deployed for counternarcotics 
operations, on the one hand, this is being done because of a 
lack of confidence, to a certain degree, in the police. There's 
no question about that, and that's what they have said. On the 
other hand, there have been such efforts before, and some of 
these efforts have worked, but others have failed because of 
corruption.
    For example, I am aware of one such effort in Chihuahua 
within the last couple of years that did not work, and there 
have been others, too.
    Mr. Mica. Well, we get into the Chihuahua situation. We 
also get into the use of U.S. assistance against domestic 
opposition.
    Mr. Gelbard. Let me just finish. This is exactly why we 
think it is critical for the Mexican Government to develop the 
kinds of clear, trustworthy units, in which they feel confident 
and in which we feel confident, to carry out operations on a 
successful basis.
    Mr. Mica. I hope it's not being done, just a week before 
the certification process, as show.
    Thank you, Mr. Chairman.
    Mr. Hastert. Mr. Ambassador, before I move on to our next 
query, I have to step away for a minute. I want to personally 
thank you for being here and for taking time to do this.
    Now I would like to ask the gentleman from Ohio, Mr. 
LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Thank you again, Mr. Ambassador, for being here. I think 
the last time we saw you was on Valentine's Day, and I would 
have preferred to have seen my wife, but it's nice to see you 
again in another hearing.
    I want to followup a little bit on some of the questions 
that Mr. Mica, and Mr. Turner, and also Mr. Barrett were 
exploring. My recollection from the Valentine's Day hearing, in 
response to some questions that I had asked you about President 
Samper of Colombia, was that part of our general disgust with 
that administration had to do with not only the allegations 
that he had received $6 million, allegedly, in campaign 
contributions from narco traffickers, but I think you indicated 
to the panel at that hearing that there was a longstanding 
history that dated back many, many years that could be 
documented.
    Mr. Mica was just talking to you in that same vein about 
Gen. Gutierrez, and there have been accounts that--and 
actually, if you play out the scenario, it would be highly 
unlikely that a fellow who is only 10 weeks new on the job, all 
of a sudden, has developed a relationship that would land him 
in a new apartment and the ability to live above his means. So 
it makes sense that the hints that there is, in fact, a 7-year 
relationship, I suppose, that more likely than not would exist.
    Mr. Mica was exploring with you the fact that, you know, 
what did we know here in the United States or what did we not 
know here in the United States. When you were talking to Mr. 
Barrett and Mr. Turner, it was on the issue of whether or not 
there was a flow of information and, as I understood, even 
though I stepped out of the room when you were talking to Mr. 
Turner, that there is an investigation ongoing as to what 
information may have been sent to Gen. Gutierrez and his 
associates.
    Is the administration likewise conducting an investigation 
or an analysis of whether or not different branches of our 
government should be talking to each other? For instance, 
should Justice--have you made any inquiry as to whether or not 
Justice had any information about Gen. Gutierrez prior to this 
recent event in February?
    Mr. Gelbard. Certainly, we are looking into the question of 
whether and which agencies did have information, any 
information about him, and obviously, if so, why we didn't know 
about it. We have normally had a very good relationship with 
agencies about trying to determine when there are individuals 
about whom there is suspicion, and that has enabled us, I 
think, to act usually pretty effectively. So if there was any 
information and policymakers didn't get it, obviously, that's a 
subject of great concern.
    Mr. LaTourette. The thing that struck me in your prepared 
testimony, you made the observation that Gen. Gutierrez' arrest 
and sort of defrocking belied earlier assumptions that the 
corruption was limited to the police. I assume that this series 
of activities now indicates that the military, which was 
considered to be more trustworthy than the national police, is 
now called into suspicion, as well.
    Who, in the administration, is going to be charged with 
that sort of coordination of interagency intelligence 
gathering? Has someone been assigned to that task, or is it 
sort of an ad hoc enterprise?
    Mr. Gelbard. I think this is basically under Gen. 
McCaffrey, in the sense that he has responsibility for 
coordination of the national drug control policy.
    Mr. LaTourette. Just one last question because I know you 
have a busy schedule today. When the chairman began the 
hearing, he expressed a concern and a question that Colombia 
and Mexico be treated in an even-handed manner during the 
certification or recertification process. Your response was 
that they are. You also indicated a hesitancy to talk about the 
certification process.
    I think what leads some Members on this panel to be 
somewhat nervous is, there have been some accounts in the 
newspaper that, after the Gutierrez affair, if we can call it 
that--we won't call it Gutierrez Gate, I guess--broke in the 
papers, that this situation will not impact upon the 
administration's decision on certification. There are other 
accounts that with Colombia and Mexico, Mexico is somehow 
different because Mexico is such an important trading partner 
with this country, whereas Colombia is not.
    None of them are attributed to you, obviously, because I 
don't assume you feel that way. Can you give us the 
administration's assurance, or at least the State Department's 
assurance, that those types of considerations are not taking 
place in the certification process?
    Mr. Gelbard. First of all, I am always surprised by 
accounts in the press which come about this time of year and 
are coming out now, alleging that decisions have been made one 
way or another about any country. I will be categorical, as far 
as I am aware, no decisions have been made about Colombia, 
Mexico, or any other countries. I think I have reason to be 
knowledgeable about this.
    The Secretary of State is just returning from her trip this 
afternoon, and we haven't met with her yet about it. There have 
been no discussions between the President's Cabinet and the key 
Cabinet members about this. The Secretary's recommendations, 
which are what are called for under the law, have not been 
forwarded to the President yet. So I can assure you that those 
accounts are not accurate.
    Mr. LaTourette. Just an observation, as my yellow light 
goes on is, I had the opportunity to see the Secretary on 
television over the weekend, from overseas, and I found her 
comments regarding this situation of waiting to see when she 
got home, to take a look at all of the developments, to be 
highly commendable, and I commend her for them.
    I thank you, Mr. Chairman, and yield back.
    Mr. Souder [presiding]. Thank you.
    I now yield to my friend from Georgia, Mr. Barr, former 
U.S. attorney from Georgia.
    Mr. Barr. Thank you, Mr. Chairman.
    Ambassador, I certainly understand that there are some 
delicate decisions that the administration has to make, and I 
certainly understand that you have to be very careful about 
what you say, but I am absolutely baffled by some of the things 
I'm hearing today.
    You say that our Government has the highest level of 
confidence in Zedillo. I'd hate to see a leader that we don't 
have the highest level of confidence in. You said that the 
United States is prepared to work forcefully with Mexico, yet 
you won't make any statements at all, even hinting at doing 
anything tough with them. You say that now we're really going 
to tighten up. You mentioned polygraphing the Generals. Good 
luck. I don't consider that even realistic to talk about that.
    You started to make a statement, and I'm not quite sure 
whether you finished it or not, I hope you didn't, to the 
effect that we don't collect intelligence on these things, in 
response, I think, to either a statement or a question from 
another Member about why we were caught absolutely flat-footed 
here. I know we collect intelligence on these matters.
    Mr. Gelbard. I don't believe I said that.
    Mr. Barr. You then said there have been no discussions in 
our Cabinet about this. I read press reports that not only is--
I mean, our Government seems to be essentially unconcerned 
about this, and I mean, there are apparently no plans to 
decertify Mexico. Not only that, but I'm hearing press reports 
today that the administration wants to move the process 
forward, for what purpose I don't know.
    But can't you at least state that the most prudent thing to 
do at this point would be not accelerate the process of making 
a determination on the certification? Would you at least be 
prepared to state that?
    Mr. Gelbard. The President is required by law to make a 
determination on certification by this Saturday.
    Mr. Barr. Right. But I'm hearing press accounts--and I'd 
like you to, hopefully, state that they are absolutely, 
categorically wrong, that the President is considering 
accelerating that, so that the decision is made even before 
that time.
    Mr. Gelbard. I haven't heard any of those press accounts, 
and I don't know where they come from.
    Mr. Barr. Are they wrong?
    Mr. Gelbard. I have no idea what is being discussed in the 
press.
    Mr. Barr. Let's just say, hypothetically, if there were 
press accounts.
    Mr. Gelbard. These are issues which are being examined and 
discussed with the utmost seriousness, which is what they 
merit. The issue of certification, for any country that's on 
the majors list that was sent to the Congress by the President, 
is being examined with great care and great examination. I'm 
not responsible for things that come out in the press, nor 
would you want to be, Congressman, but I can only assure you.
    Mr. Barr. But if I'm misquoted in the press, I'll at least 
say it's wrong. Can't you at least say that that's wrong?
    Mr. Gelbard. I wasn't quoted in the press saying that 
either. I can only assure you that the relevant members of the 
administration are looking at these issues intensively. This is 
why I asked to be excused from this hearing, because we are 
deeply involved, not just within the State Department, but 
within all parts of the Government that have responsibilities 
on these issues.
    When I talked about the Cabinet, what I meant was that 
there has been no formal discussion yet among Cabinet members 
with the President, of which I'm aware, to make final 
decisions. But there are detailed, comprehensive discussions 
going on, on a continuing basis. I will be going back to some 
this afternoon. I have been involved in some this morning, as I 
was yesterday and the day before that. So this is going on in a 
very, very serious way.
    As I said on the date of the previous hearing, it's only 
been with this administration that certification has been taken 
really seriously. When I took over my responsibilities, my 
feeling was, this is the law of the land, and therefore I was 
going to handle this as a very, very serious issue.
    We wouldn't be even having these discussions, probably, if 
I, supported by then Secretary of State Christopher, Attorney 
General Reno, and most importantly, President Clinton, had not 
taken the fundamental decision to handle the certification 
issues as serious, critical issues. We feel that they have 
played a very useful role in policy.
    If you look back on the history.
    Mr. Barr. I'm not interested.
    Mr. Gelbard. If I can just finish my statement, please.
    Mr. Barr. Hold on just a second, please. I mean, I'm not 
interested in saying the last administration didn't do anything 
on drugs, and this is the only administration that has. That's 
not the point. It's not the case, either.
    Mr. Gelbard. That isn't what I said.
    Mr. Barr. Well, you know, let's stay away from the 
political rhetoric. What I'm trying to get at is, how we can 
look at the situation in Mexico and reach anything but one of 
two conclusions, both of which impact, I would think, seriously 
on the certification decisionmaking.
    Those two conclusions--and I think they are the only two 
that can be reached--are, one, either Zedillo is not a knight 
in shining armor and not the most trustworthy man on the face 
of the earth, or second, he may be very honest, but he has 
absolutely no knowledge of or control over what's happening in 
his government.
    Where you have an individual such as Gen. Gutierrez, he's 
not a mid-level functionary; he's not a petty bureaucrat; he is 
the top person. He is more important than Gen. McCaffrey. I 
mean, he is not only the policymaker, in a sense, but the 
executor of that policy. There is no more important person in 
their government, if they are, indeed, going to have an 
effective antinarcotics operation.
    Yet we have this person in the government apparently on the 
take for quite some period of time, and the President either 
didn't know about it until just a few days ago, which raises a 
serious question in my mind, as I said, about whether or not he 
is in control of his government, even assuming he is honest. 
Second, he may not be as honest as we're talking about here. I 
mean, we've been fooled before. Gen. Gutierrez certainly fooled 
the top people in our Government.
    Mr. Gelbard. I have every reason to believe that President 
Zedillo had no knowledge that this man was corrupt. What he 
decided to do when they began to have suspicions of his 
corruption was that he ordered an investigation; he ordered the 
man taken into custody, through Secretary of Defense Cervantes; 
he acted quickly until he got a confession; and he then 
incarcerated the man pending trial, as he has now done with 
others; and there is an ongoing investigation taking place.
    I think you, particularly, would understand, as a former 
prosecutor, that the need to act swiftly and in secrecy worked 
here. The tragedy, of course, is the person who they appointed. 
But I have no reason to believe that he had any knowledge of 
this. If he had, then the question would be, why did he take 
such action, as he swiftly did?
    Mr. Barr. Well, if he is honest, and let's assume, 
hypothetically, that what you're saying is correct, then do we 
have here a very honest government that is not in control of 
its government?
    Mr. Gelbard. We have a government, as I have said 
repeatedly today, that is clearly aware of the need to try to 
build institutional capabilities, because they know they don't 
have them right now, and they know they have a serious 
corruption problem that they are beginning to deal with.
    Mr. Souder. Thank you for your questions, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Souder. We are going to have one additional question 
from Mr. Mica.
    Mr. Mica. Mr. Chairman, Mr. Gilman, who is chairman of 
another full committee, as you well know, isn't able to ask 
this question, a question that I also share with him, relating 
to the February 14 hearing on drug policy, in which you 
participated. You twice answered, in response to questions, 
that there had, in fact, been no impact from decertification on 
the Colombian National Police.
    The question that we have is, how could you make that 
statement with a couple of things that had happened? First of 
all, there was a DC-3 that was not repaired for, I think it 
was, months--it may have been as many as 6 months--while the 
administration was trying to decide whether or not they could 
repair the plane under FMS. That's the first part of the 
question.
    The second part of the question is, I have a list that was 
provided me from the Colombian National Police Force, and it's 
of equipment that reputedly was not provided or stopped, per 
decertification, to the Colombian National Police Force. Just a 
few of these--and I'll give you the whole list--it's ammo, 
machine guns, air refueling equipment, aircraft armor 
installation team.
    Without objection, I would like these entered in the 
record.
    Mr. Barrett. May I see a copy of those, please, Mr. 
Chairman?
    Mr. Mica. Basically, how?
    Mr. Barrett. Mr. Chairman, I will object until we see a 
copy. If I could see a copy, please.
    Mr. Mica. OK. I'll be glad to give it to you.
    Basically, Mr. Gelbard, how can you say that there was no 
impact from decertification to the Colombian National Police 
Force, with this information that has been provided to us?
    Mr. Gelbard. What I did say during the hearing--and I, of 
course, welcome the fact that we have parallelism now, a lot of 
discussion on Mexico in the Colombia hearing, and now a lot of 
discussion on Colombia in a Mexico hearing--I did say, at the 
time, that the way the certification law was written excluded, 
according to all legal authorities in the executive branch, the 
ability to provide FMF and FMS assistance, and the 
administration is examining the idea of using a 614 waiver to 
provide the assistance. I was very clearly on the record about 
that.
    That being said, just because there are things that the 
Colombian police may feel are among their needs does not mean 
that we, necessarily, can provide them through assistance, 
based on off-the-shelf or inventory availability. Some of these 
things are based on equipment that the U.S. military has, 
without degrading readiness, and other things we just simply 
can't provide.
    Mr. Mica. Well, Mr. Chairman, the statement that was made 
on page 20 is, ``The decision to decertify did not in any way 
affect the support provided to the police.'' Those are your 
exact words. We have this information of material that was not 
provided or equipment that was, in fact, delayed. It doesn't 
appear to jibe.
    Is there any objection to including that list of material 
into the record?
    Mr. Barrett. We're having a photocopy made to look at it. 
Before we are done, I will resolve it one way or another.
    Mr. Mica. All right. Mr. Chairman, then, at the appropriate 
time, I would ask that, if there is no objection, that be made 
part of the record. Thank you, and I yield back.
    Mr. Souder. I want to thank you, Mr. Ambassador, for 
coming. I know this is your favorite time of year, and I 
appreciate your sharing it with us. Once again, we appreciate 
the time you spent with the committee.
    Did you have any additional questions?
    Mr. Barrett. Again, thank you, Ambassador. Good luck with 
your decisions.
    Mr. Souder. Will the second panel please come forward?
    While we are welcoming our second panel, the gentleman from 
Wisconsin has a point of order he would like to raise.
    Mr. Barrett. Mr. Chairman, I have a point of order. Let me 
say at the outset that I plan to withdraw this point of order. 
Let me further state to Mr. Castaneda and Representative 
Bonilla that I am simply making a parliamentary point, so 
please don't take it personally.
    Mr. Chairman, we were informed only last night at 5:30 
about the appearance today of Mr. Castaneda. As I'm sure you 
know, committee rules require members to be notified 3 days in 
advance of hearing of any witness that might be present. If you 
would like to make changes to the witness list within 3 days of 
a hearing, I would appreciate your contacting the minority 
directly, as soon as you are aware of any changes.
    I withdraw my point of order.
    Mr. Souder. We will definitely take what you said under 
advisement. There was a problem getting logistics organized, 
and that's why you were told that he may be, but it was only 
confirmed at the end. We also have had, in this story, a lot of 
things breaking. In the past history of this committee, and we 
will continue to try to do that, we have tried to work very 
closely with the minority, because it's important we approach 
the drug issue in a bipartisan way.
    Mr. Barrett. Thank you.
    Mr. Souder. Thank you for your concern.
    I would now like to welcome our second panel. We are 
fortunate to have our distinguished colleague, Congressman 
Henry Bonilla, from the San Antonio area.
    Welcome.
    Congressman Bonilla represents the 23d District, from the 
State of Texas. That includes El Paso, Eagle Pass, and Del Rio 
townships.
    Congressman Bonilla, we thank you for taking the time to be 
with us.
    Also, we have Tony Castaneda with us here today. Chief 
Castaneda is the chief of police in Eagle Pass, TX. He is here 
today to give us a picture of the front line in the drug war 
along the border.
    We thank you for taking time to come up to be with us today 
and to share your grassroots wisdom on what's happening in your 
hometowns.
    Mr. Bonilla.

STATEMENTS OF HON. HENRY BONILLA, A REPRESENTATIVE IN CONGRESS 
 FROM THE STATE OF TEXAS; AND TONY CASTANEDA, CHIEF OF POLICE, 
                         EAGLE PASS, TX

    Mr. Bonilla. Thank you very much, Mr. Chairman.
    You are correct, the only reason we did not let the 
committee know a little earlier about Chief Castaneda's visit 
here is because the logistics were being worked out, and we 
informed the committee just as soon as we knew he was going to 
definitely appear. We appreciate the indulgence.
    Mr. Chairman, I am glad he is here today, because, as soon 
as I make some brief remarks, he is going to let us know, 
first-hand, what it's like on the front lines at the Mexican 
border. The chief sees first-hand the smugglers coming across 
the border, armed, arrogant, fearless, understanding that it's 
almost an open-door policy because of the lack of Border Patrol 
and Customs agents to police such a large square-mile area. 
That's something that we're here to discuss in detail here 
today.
    Mr. Chairman, once again, I salute you for focusing 
attention on a problem, for those of us living along the 
border, that we've had to live with for far too long. We, on 
the border, have been on the front lines of this battle against 
drugs for years, and we welcome your help and the help of 
anyone in this country who can help us fight off the invasion 
of drug smugglers along the Mexican border.
    The Rio Grande is the lifeblood of the region, not a 
barrier dividing it. Mexico is our neighbor. It is often said 
that you can choose your friends, but you can't choose your 
neighbors. You have to live with each other, and I am committed 
to supporting policies that ensure that we continue to live 
together as friends, Mexico and the United States.
    We can't pretend Mexico's problems will not affect us. 
Mexico is a nation in crisis. Its institutions are under 
strain. Mexicans have seen their economy offer the promise of a 
better life, only to see this dream dashed by economic setbacks 
time and time again.
    Mexico's middle class is increasingly impatient with the 
failings of a one-party State and generations of corruption. A 
genuine multiparty system is beginning to take hold. Not 
surprisingly, these revolutionary changes, the hope they embody 
and the abandonment of old uncertainties which have accompanied 
their rise, will shape the face of Mexico's future. That future 
will have a great impact on our future along the border and 
throughout the United States.
    The drug barons have moved into this power vacuum, Mr. 
Chairman. Our Nation's immense demand for drugs has made them 
billions of dollars, and they are using these resources to 
further spread their scourge. To win this battle, we must wage 
a battle on two fronts, against both supply and demand for 
drugs.
    Drug use is a threat to our children's future. The drug 
lords' profits have given them the resources to capitalize on 
Mexico's economic stress and tradition of political enrichment 
to buy themselves a base of operations. The difficulty in 
combating this onslaught is immense and need not be minimized. 
Our national interest demands that we assist in this effort. 
However, that is easier said than done, as there are few 
certainties concerning this problem.
    The people who live in my district are on the front lines 
of this conflict. Drug trafficking is threatening their lives. 
Ranchers and farmers live in fear as armed smugglers cut down 
their fences and pass right outside their homes, brazen, even 
when people are out in the backyard and children are playing 
nearby. Many feel pressured to sell property to the smugglers.
    One of my constituents, a ranch hand, reported witnessing 
armed guards standing watch over a large quantity of marijuana, 
awaiting its pickup by U.S. drug dealers. My colleagues, this 
is not an acceptable environment for Americans, and we are 
talking about America. No American citizen should have to live 
under this threat.
    Unfortunately, the administration has taken actions which 
have exacerbated the problems my constituents face. Less than 
100 of the 1,000 new agents joining the Border Patrol have been 
assigned to this region covering over 600 miles of the Texas-
Mexico border. This region has fewer resources to stop the 
smugglers than others.
    Actions speak louder than words. The drug lords understand 
the administration's message. The message is, ``Go right ahead 
and smuggle along the Texas border. There are fewer resources 
here to stop you, so why not come on in.'' The Clinton 
administration needs to change its tune. The good people of 
Eagle Pass and other border communities deserve no less. I 
would appreciate the committee's help in working to direct 
resources where they are needed, as opposed to where they are 
politically beneficial.
    The situation in Mexico is grave. In recent days and at 
this hearing today, we've seen Mexico's drug czar, Gen. Jesus 
Gutierrez-Rebollo arrested for being in the pocket of the 
Juarez Cartel. This has followed months of investigations 
linking high-ranking members of the Salinas government and 
family to the drug cartels. Just yesterday, serious allegations 
were made regarding the Governors of Sonora and Morelos. All 
this information appears to paint a very gloomy situation in 
Mexico.
    In fact, there is some very good news in this bad news. The 
good news is that the truth is finally coming out. Corruption 
is being exposed and justice is being served. Let us not ignore 
this progress as we recognize the massive scope of the drug 
problem.
    My colleagues, America has faced more difficult challenges 
and triumphed in the past. I know that we can defeat the drug 
scourge and build a better future on both sides of the border. 
An important first step would be in letting law enforcement, 
not politicians, map out our strategy. We need to ensure that 
Federal law enforcement efforts are closely coordinated with 
local law enforcement. We need to make sure that all parts of 
the border get the resources they require.
    I am pleased that we will now hear from Chief of Police of 
Eagle Pass, Tony Castaneda, who has traveled and just arrived 
here in Washington within the last hour, to tell us what is 
going on on the front lines of the battleground along the 
Mexican border.
    Mr. Chairman, if I may now turn the microphone over to 
Chief Castaneda, I will do that.
    [The prepared statement of Hon. Henry Bonilla follows:]
    [GRAPHIC] [TIFF OMITTED] T1196.001
    
    [GRAPHIC] [TIFF OMITTED] T1196.002
    
    Mr. Souder. I need to swear you in, Mr. Castaneda.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative.
    Once again, we welcome you here, and we are looking forward 
to hearing your testimony.
    Mr. Castaneda. Thank you, Mr. Chairman.
    Before I start off, I would like to extend my sincere 
apologies for being delayed today. I ran into some problems at 
the airport, and luckily we were able to work those out so I 
could be here on time.
    Mr. Souder. We appreciate your coming so far, and it's 
unlikely you had a private, direct plane that got you here.
    Mr. Castaneda. Yes, it's a long line.
    Mr. Chairman, members of the committee, I represent a 
community that borders the Mexican border. I grew up in Eagle 
Pass, went to school there, have a family, and I live along the 
border myself, in the community of Quemado, which is a small 
farming community about 20 miles north of Eagle Pass.
    Currently, I've been the chief of police for the city of 
Eagle Pass for 3 years, and statistically I have seen an 
increase in our regular crimes there in the community. Most of 
the crimes and the criminals that we've been able to arrest 
come from an extensive history of being involved in narcotics 
trafficking.
    About a year ago, sir, we lost a very good fellow law 
enforcement officer in the city of Eagle Pass, a Border 
Patrolman by the name of Jefferson Barr. Mr. Jefferson Barr's 
death opened the eyes of the members of our community, 
something that law enforcement personnel were already exposed 
to. Nevertheless, the community has rallied behind this death 
to make sure that we regain our community.
    Basically, my trip here, sir, today is to echo the 
sentiments of Congressman Bonilla, who represents the interests 
of our area. Our area is desolate. We're understaffed, and it's 
a big drug haven for the drug lords moving in.
    Last year, after the death of Jefferson Barr, our community 
was saturated with news reports of being identified as a drug 
haven, a major drug route for Mexican traffickers. As a result 
of that, we saw temporary relief from supplemental agents from 
the DEA, Customs, and even Border Patrol. Then, with the 
assistance of Senator Phil Gramm, we got the assistance of the 
State of Texas to bring in State troopers to assist us in 
detecting and working an interdiction program.
    However, that help was only shortlived. They were there for 
several months, and they had a big impact in our community, and 
they were welcome. However, now they are gone. We are starting 
to see an increase again on drug seizures in our area and crime 
again in our communities.
    Basically, I'm here, sir, to answer any questions that you 
all might have concerning these incidents. Basically, the major 
turning point for us has been the death of Jefferson Barr, sir. 
It affected the morale of my officers, realizing that we're 
understaffed and not properly equipped. It's a dangerous 
situation. We have encountered several violent incidents where 
exchange of gunfire has been with narcotic traffickers. We have 
arrested several narcotic traffickers, and we have seized a lot 
of narcotics.
    The U.S. Border Patrol that services our area are our first 
line of defense down there. They are the major interdiction 
force. Besides interdicting narcotics, they are also assigned 
the task of interdicting the illegal entry of aliens into our 
country. What we have recently is that the narcotic traffickers 
are using illegal aliens, poor, decent folks trying to earn a 
decent living, you know, using them as fronts so that the 
agents will detect them, apprehend them, and then shortly after 
they have finished with their business, then the narcotic 
traffickers come in through the rear with the dope.
    It's an overwhelming battle, and certainly Federal 
attention needs to be serviced in this area. My presence here, 
sir, is only a direct testimony of what the need needs to be, 
and that we need the help.
    Mr. Souder. Thank you very much, Chief, for coming.
    Thank you, Mr. Bonilla, for arranging that. We appreciate 
your leadership here in fighting for this.
    Starting my questions, are the Border Patrol ever moved 
from your area, and what happens if they are pulled over to 
another targeted area? Do the dealers then move into your area? 
Can you see that immediately? What kind of reaction do you see?
    Mr. Castaneda. Yes, sir. I become aware of several special 
assignments sometimes, that they move local agents stationed 
there in the Eagle Pass area to go service other areas in 
Arizona, California. When this happens, sir, it's undermining 
an already limited defense.
    My office is regularly on a routine, daily operation. We 
apprehend and detain a lot of illegal aliens and wait for the 
Border Patrol to come in. They are inside the city limits of 
Eagle Pass. So once they are moved, certainly it limits the 
response time for the agents to service the whole area, and it 
has a big impact when they are moved from the Eagle Pass area 
to other areas of the border.
    Mr. Souder. What are the odds that the drug dealers don't 
know that the Border Patrol people have been moved? In other 
words, when I was at the Nogales border, they even had spotters 
on the Mexican side to watch how closely they were looking at 
the cars. They would send somebody through and see what they 
were doing. There were spotters to watch the spotters.
    Now, Border Patrol isn't quite as visible as that, but I 
would assume that the information would be pretty potent that, 
when they are out of town, it opens up.
    Mr. Castaneda. Absolutely, sir. They perfect their own 
methods of operation. We have checkpoints out of the community 
of Eagle Pass, and regularly they are staffed by Border Patrol 
agents doing their work. However, narcotic traffickers and 
illegal alien traffickers, you know, they know the hours. They 
have spotters, as you mentioned, sir, and they try any which 
way to try to smuggle the drugs in.
    Usually, when those posts are manned on the highways, that 
leaves an area open along the riverbanks or limits the amount 
of officers that can be assigned to particular sectors to 
patrol the river.
    Mr. Souder. Do you view the police on the other side of the 
border as helpful, as assets? If you have a tip, and somebody 
moves across the other side, what is your relationship?
    Mr. Castaneda. We maintain a pretty good relationship with 
the local law enforcement officers there, sir, but normally 
they are not the ones that call us and give us information such 
as, ``We have a particular load that's going to come through 
here,'' or anything like that. Our relationship hasn't nurtured 
that type of a relationship with them.
    Mr. Souder. How large is your police force, and what is 
your equipment, vis-a-vis the drug dealers that you are seeing 
coming through, in the communications, in the weapons?
    Mr. Castaneda. Basically, I supervise a police force of 58 
sworn commissioned officers, by the State of Texas, plus my 
support staff. Out of those 58, I have about 10 officers: 6 
that are assigned to the local DEA office there; and 4 that 
work hand-in-hand with the U.S. Customs Service office there in 
Eagle Pass.
    Basically, from what I gather from the reports and their 
conversations with me, as far as statistics and intelligence, 
they are running into a lot of armed bandits, you know, 
smuggling the marijuana. They have pretty modern technology to 
assist them in coming through, and I'm talking about night 
vision glasses, good communications systems with them, and 
things of that nature, sir. Basically, we're meeting people 
that are sophisticated in their game plan in order to bring in 
the narcotics.
    Mr. Souder. One of the core questions, we always hear how 
long the border is from Texas on through New Mexico, Arizona, 
and California, and that it's impossible to make progress. One 
of the fundamental questions is, when we put pressure on at the 
logical points, and in effect move the traffickers off the main 
highways, is it easier or harder?
    Because, on one hand, it would seem like the Highway Patrol 
and other people who normally pick them up wouldn't be 
available if you move them off. On the other hand, some of the 
reaction I got from my Arizona experience was being able to see 
that, in effect, if you deprive them of the main roads, often 
they will have to resort to mules or other types of things, and 
the planes flying overhead may see them moving through an open 
area as opposed to inside the city, or mixed in with other 
traffic.
    Can you give me some of your ground level feelings on that?
    Mr. Castaneda. Basically, sir, over the years, a lot of 
Federal pressure was placed on south Texas. As a result of 
that, we started apprehending a lot of narcotics smugglers in 
the Eagle Pass area that had prior arrest histories effected 
down in south Texas. But normally the narcotic traffickers in 
our area, when they are in transit of the narcotics, they are 
either stored in stash houses there in the community and then 
moved at a later date, you know, smuggled under furniture, 
produce, or things of that nature.
    I don't know if I answered your question, Mr. Chairman.
    Mr. Souder. I'm wondering, if you put the pressure on at 
the crossing points, and you have intensive--if we focus our 
intensive efforts at the logical crossing points, presumably, 
what that does is move a certain percentage off by small 
airplane, or by mule train, or other types of things. Does 
that, in your experience, make it harder or easier on the 
dealers?
    In other words, on the one hand, you have all these miles 
and miles of ranchers and things with fences that can be cut 
through; on the other hand, they are a little more isolated. 
Because, in the city, once it's mixed with the commerce, boy, 
it's like hunting for a needle in a haystack.
    Mr. Castaneda. Yes, sir. If we were to concentrate heavily 
along the border, it would certainly make it difficult for the 
traffickers to come through. This can come through with the 
personnel and the resources to supplement police departments 
like ours.
    We do have a concern with the rental of a lot of buildings 
where they are hiding, narcotics to be moved at a later date. 
The officers, Federal officers, assigned to the port of entry 
and the local Border Patrol, they apply the necessary pressure 
to try to put up a legitimate defense. However, the area is 
very vast and long, and there are a lot of holes through there.
    Mr. Souder. One last question. Congressman Bonilla referred 
to ranchers who are afraid and others. Are they afraid to speak 
out? Is there increasing intimidation? Is this getting worse?
    Mr. Bonilla. Yes, they are afraid to speak out, Mr. 
Chairman. In many cases, we have tried to get people to come 
out and publicly tell their story, and they are simply 
terrified that, if they are seen on the evening news or in a 
newspaper article, that there will be retaliation against them. 
It's unfortunate. It is a horrible situation along the border.
    Just to elaborate on what the Chief was just talking about, 
changing manpower from one spot to another and how that might 
affect things. Yes, I think your question was right on target. 
It's hard, with the limited manpower and the vast amount of 
space we have to cover down there, to keep an eye on every inch 
of the border.
    This is a war going on, and I think down the road we've got 
to look at somehow having unmanned UAV surveillance, or 
satellite surveillance, or something, so that they know that we 
can watch every inch of the border, versus a place where we 
happen to have more agents at 1 day.
    Mr. Souder. Thank you.
    Mr. Barrett.
    Mr. Barrett. Chief, we appreciate your coming and sharing 
your testimony with us.
    We have heard today a number of questioners and people 
talking about the corruption, both within the military in 
Mexico and within the local police forces. I assume that you 
have interaction with the local police forces on the other side 
of the border, and I am interested in your perception as to, 
either directly or indirectly, how much you know or feel, how 
much corruption there is there.
    Mr. Castaneda. I think corruption is a way of life down 
there, sir. Since I've been there, for the 3 years, I have 
terminated three officers, and two of them were because of 
involvement in narcotics or suspicion of narcotics, or in 
illegal entry of illegal aliens for profit.
    On the Mexican side, the only thing I can comment on is 
what I read in the paper. I do not frequent with them. I do not 
converse with them, and do not talk shop with them. Basically, 
there is an area of mistrust, but still, nevertheless, to say 
there's a lot of decent folks that try to uphold the law in 
Mexico, and especially in the border community. But, 
nevertheless, I'm still limited as far as what I tell them and 
how I conduct myself back there.
    Mr. Barrett. Is the distrust a mutual distrust?
    Mr. Castaneda. Yes, sir. Yes, sir.
    Mr. Barrett. What do you perceive is the reason they 
mistrust the American side? I'm from Wisconsin, so this is new 
to me, to find out why they would distrust you.
    Mr. Castaneda. Well, the mistrust would be that they don't 
know if really you're part of the game plan with them, and just 
us living on this side of the border and they living on that 
side of the border. You have some officers, like I mentioned, 
that are extremely honest and they will share information. 
However, since we don't know them and we don't deal with them 
directly, we sometimes limit what we tell them, and that perks 
up their ears, you know, sometimes that we're not playing a 
full game with them. That starts developing the mistrust on 
their side.
    Mr. Barrett. Do you have any idea how much they make?
    Mr. Castaneda. Excuse me, sir.
    Mr. Barrett. Do you have any idea how much they make?
    Mr. Castaneda. Very little, sir. I don't know. It just 
varies.
    Mr. Barrett. Again, not knowing the region, can you give me 
sort of an estimate or guesstimate as to how much they would 
make?
    Mr. Castaneda. I'd say no more than $50 every week.
    Mr. Barrett. OK.
    Representative, I appreciate your attention to this 
problem. Obviously, the issue of utmost importance this week is 
whether we certify Mexico or whether we don't certify. Again, I 
look to you for your expertise. Having a long border with 
Mexico, you obviously have a lot more economic interaction than 
I do, coming from Wisconsin.
    I would just be curious as to whether you have formulated 
an opinion on certification or what we should be doing.
    Mr. Bonilla. Well, I think the barometer we should look at 
is whether or not it's helpful or hurtful, in terms of 
certification. I think it would be helpful to have the 
certification, to let them know that, even though they have 
stumbled greatly, we believe they are trying to correct the 
problems. There are vast problems. If we were not to give them 
certification, then I think it would be, to some degree, 
perhaps, demoralizing, and that is not helpful. So I think, 
given the two choices, we should certify Mexico.
    Mr. Barrett. The third option that is being bandied about, 
to show our displeasure with what has happened in the last 
several weeks and the failure, really, to clean up the lower 
echelons of Mexican Government, is not to certify but to grant 
them a waiver for national security interests. What is your 
feeling about that?
    Mr. Bonilla. Well, I'm still thinking about that. I can't 
give you a definitive answer right now. Sometimes I wonder 
whether the problems that they have with corruption, that go 
from, as we have seen, the very top to the very bottom level of 
law enforcement, as the chief is referring to, it is almost 
like changing an entire culture and way of thinking, because 
it's a way of life, almost, to be corrupt at many levels.
    The alternative is to just allow them to drown and not 
offer a helping hand to Mexico. Since they affect us directly 
in so many ways, I think it's in our best interest to try to at 
least be encouraging with certification and any other 
assistance we can give them.
    Mr. Barrett. I agree with you that decertification is not 
something that we need to do. If we went with a straight 
certification, how would you think it would be appropriate, or 
do you think it's appropriate for us to send a message about 
the high-level corruption that we have seen? What should we be 
doing?
    Mr. Bonilla. Well, I think we should send a message; 
absolutely. We can't act like nothing is going on down there. I 
think, by the fact that we're having this hearing, we're 
talking about some very serious problems in Mexico that we're 
aware of and we want them to fix it.
    If we do follow through with the certification, there ought 
to be an addendum or some kind of message attached to it that 
we want to see more improvement. Because even though they were 
willing to correct this problem with the person who was just 
arrested last week, there are many of us who feel it should 
have been done earlier and that we should have seen the 
evidence presented earlier and not wait so long.
    So I don't think we should, by any means, just sit back and 
act like nothing and continue doing things the way you're doing 
them now.
    Mr. Barrett. OK. I have no further questions at this time.
    Mr. Souder. That's a particular concern if it's true that 
Gutierrez tipped off Fuentes about incoming flights from the El 
Paso center, being in your district, that was tracking. Those 
types of tips to the very people we're trying to catch would be 
so counterproductive, at the grassroots level, to what we're 
doing.
    Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    Gentlemen, as I had the opportunity to say to Ambassador 
Gelbard a few minutes ago, I'm a strong proponent of a strong 
United States-Mexico relationship, for a number of reasons, 
including, I believe, involving Canada and other countries who 
are our closest neighbors. However, in this area of law 
enforcement, I have found just an increasing frustration.
    Let me talk about the Mexican side first. Ambassador 
Gelbard said that the Mexican Government was beginning to 
address its severe corruption problem. They have been beginning 
to address it since I entered law enforcement in 1972, in the 
State of New Mexico.
    Again, we have to be sensitive to the fact that we're 
talking about the internal affairs of a sovereign country; on 
the other hand, a country with whom we desire a great deal of 
cooperation and for whom I supported specific cooperation when 
they asked for it, and very pleased to do so and have no 
regrets.
    I just don't know what the answer is, and I just wonder if 
either of you gentlemen have anything to add, especially if you 
favor continued certification. What can we do to get the 
Mexican Government to begin a little faster, in terms of the 
movement they are making?
    Mr. Bonilla. Mr. Schiff, I think all we can do is continue 
to apply pressure at the international level and perhaps get 
some other countries to join our effort. We need to let them 
know that, if they want to increase their standing in the world 
as a free country, a sovereign country that wants to be a 
trading partner with other countries around the world, that 
they have got to demonstrate that they have their own house in 
order. Otherwise, it's always going to be there as a drain on 
their efforts to try to become a part of the world in a 
respectful way.
    We're not suggesting, by any means, that we intercede in a 
sovereign nation anymore than we would want anyone interceding 
in our sovereign nation, but I think we need to continue to 
apply the pressure, internationally, along with other countries 
who believe that the drug problem needs to be eliminated.
    Mr. Schiff. Chief, anything you want to add on that?
    Mr. Castaneda. Yes, sir. Mr. Schiff, I would like to say, 
my earlier comments, I hope they won't misinterpret it by 
meaning that the majority of the Mexican officers are corrupt 
or on the take. We do have a lot of Mexican police officers 
that take to heart their solemn obligation to uphold the law 
and serve their communities. These are the officers that we 
need to continue to support.
    I am sure, within the PGR, the local State police in 
Mexico, you have honorable men and honorable people in Mexico 
that need our help. Certainly, it is in the best interest of 
this country to continue to support Mexico. However, you know, 
a message needs to be sent that they need to clean up their own 
house.
    Mr. Schiff. Chief, that was a very good point to add, 
especially in view of our previous conversation. Nobody is 
indicting the entire law enforcement institution in Mexico. 
However, it has been acknowledged by a number of people, 
including Ambassador Gelbard who testified earlier, that 
although every country has some degree of corruption in law 
enforcement--we're certainly not immune to it--the problems in 
Mexico have historically been worse. Trying to address those 
problems is what we are all talking about, not, of course, 
every single official there.
    Let me now move to this side of the border, and that is, 
let me ask you, Chief or Congressman, do you think you have 
received all the support that can reasonably be provided by our 
own Federal Government in your fight against illegal drug 
trafficking across the border? It seems to me that of all the 
things that the Federal Government has exclusive or very nearly 
exclusive control of--I would say it's exclusive--it's control 
of the borders.
    That's the responsibility of the Federal Government to 
regulate. It's not the responsibility, necessarily, to regulate 
every fistfight that might occur in your jurisdiction, Chief, 
but I think we have the primary responsibility here of 
determining who and under what circumstances people cross the 
border.
    Do you feel like you're getting adequate support from our 
national Government?
    Mr. Castaneda. Mr. Schiff, in Eagle Pass, our department 
has a very good working relationship with Federal law 
enforcement in our community, and they are very responsive. We 
work a lot of close cases together, sir, and I'm talking from 
DEA, FBI, ATF, Customs, Border Patrol, Immigration. We do have 
a very good relationship, sir.
    Our area is growing, and as the area grows, the problems 
are going to continue to exist or get bigger. It would be just 
that we continue to pay attention to these areas, to continue 
to supplement those areas with the necessary personnel to try 
to minimize the problems.
    Mr. Schiff. Chief, I was given some information--and I must 
acknowledge to you, I do not know the total basis for it, 
perhaps you can supply the rest--however, that the Federal 
officials did not provide aerial surveillance when requested 
for a Texas State operation that dealt with targeting an 80-
mile stretch of border right around your jurisdiction. Are you 
familiar with what that might be about, Chief?
    Mr. Castaneda. No, sir. Basically, from my officers that 
are assigned to work with DEA and Customs, you know, they 
report of having good relationships with aerial surveillance 
when it is requested from either Customs or the Border Patrol.
    Mr. Schiff. One last question. Going back, again, to the 
Mexican side of the border, and actually, Chief, following up 
on your point that there are a number of officers in their 
government as dedicated to eradicating drugs as you are, on 
behalf of our Government, given the fact that Mexico, like the 
United States, has a Federal system of government, do you have 
any suggestions--or Congressman Bonilla, do you have any 
suggestions for--are there ways that we can improve the direct 
agency-to-agency contacts between departments like the chief's 
department and similar agencies along the border, on the 
Mexican side of the border?
    Is there anything we can do directly, so that those who are 
together in fighting this battle can work more closely together 
on a day-to-day basis, without having to every day go through 
their Federal capitals? Any suggestions on that?
    Mr. Castaneda. One of the things that we have been doing, 
Mr. Schiff, is trying to provide training to the officers on 
the Mexican side so that they get accustomed to our procedures, 
so they will know, and we will be able to work a little bit 
better. I think this opens the door for some confidence and 
acceptance on both sides.
    We try to visit and exchange information on limited 
situations. I think one of the major problems that is 
attributed to exchanging or opening our whole information is 
because Mexican officers customarily stay, and Federal officers 
are moved regularly. They are not located in certain areas for 
extended periods of time so that they can build up that good 
working relationship with their American counterparts.
    I think this is one of the problems that creates that 
mistrust and lack of information from both sides.
    Mr. Schiff. Thank you. I yield back, Mr. Chairman.
    Mr. Bonilla. Mr. Chairman, may I elaborate on this subject 
just for a second?
    Mr. Schiff. OK.
    Mr. Bonilla. One of the difficulties, as the Chief is 
pointing out, to working with law enforcement on the other 
side, as those of you who have visited some of the border 
communities know, as soon as you step across the border you 
are, in many cases, entering Third World neighborhoods. There 
has never been--and we wish there could be--greater 
sophistication among law enforcement on the other side, as 
well. I just wanted to elaborate on that, because the chief 
touched on it.
    But you asked a question earlier, Mr. Schiff, is our 
Government doing everything we can to help law enforcement 
along the border, and I just want to make sure that you 
understand the answer is, clearly, no. A lot of us in the 
Southwest were concerned, especially during the last 12 months, 
that perhaps, during an election season, Border Patrol agents 
and other manpower, INS, were being shifted out of Texas into 
other States like California--and California needs help, too--
but we have a big, tenfold amount of mileage to cover along the 
border.
    While the drug stories were hitting the newspapers 
nationally about the arrogant, armed, law enforcement-defying 
drug smugglers coming across the border, even during that time, 
Border Patrol agents were being shifted from Texas to go to 
other areas during an election year. I wanted to make sure that 
I was clear about that, for the record.
    Mr. Schiff. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Souder. I thank the gentleman from New Mexico, Mr. 
Schiff.
    I want to comment, too, that while it looks like it's a 
Southwest Border problem, the drugs come across in Texas, New 
Mexico, Arizona, and California, and come to Indiana and 
Wisconsin, and places in the Midwest, and kids are dying in our 
streets because of our failure, to some degree, to control it 
at the borders.
    The gentleman from Florida, Mr. Mica.
    Mr. Mica. Chief, I read about the tragic death of the 
Border Patrol officer near your community. I'm wondering if the 
threat of drugs coming from Mexico is as bad now or worse than 
it was a year ago when that death took place; about the same, 
or where are we?
    Mr. Castaneda. I'm glad you touched on that, Mr. Mica. The 
death of Jefferson Barr is the ultimate sacrifice that a peace 
officer can give for his country. Just this morning, I was 
being briefed that, in my community, at 4 a.m., there was an 
exchange of gunfire with narcotic traffickers. So my response 
to your question is, sir, it isn't getting any better. So, 
obviously, it's getting worse.
    Mr. Mica. It's getting worse. Well, I just had handed to me 
a summary of the administration's plans. Our drug czar was 
having a press conference while we're having this hearing. It's 
a good diversionary tactic.
    But he said, ``The administration plans to concentrate its 
antidrug efforts on education and prevention.'' The summary 
said, ``The strategy calls for bold changes in antidrug policy, 
such as explicit recognition that demand reduction must be the 
centerpiece of the national antidrug effort,'' and ``Prevention 
of drug use by youth is the top priority, with an emphasis on 
prevention of underage drinking and smoking.''
    I guess there's a list of five basic goals; the last of 
these is strengthening the interdiction in air, land, and sea. 
So it doesn't look like you're going to win out in this new 
policy.
    Mr. Bonilla. Mr. Mica, that's going to sound like a 
wonderful story, I'm sure, on the evening news, but the reality 
is that there is, again, a war going on along the Mexican 
border, with all of our States. Until we get more law 
enforcement down on the border, all of these programs that 
sound wonderful--and some of them may be very helpful--are not 
going to stop two-thirds of the amount of drugs coming into our 
country across the Mexican border.
    Mr. Mica. So what do you think, Chief?
    Mr. Castaneda. Mr. Mica, I know that public education and 
drug awareness has its place, sir, but I'd have to agree with 
the Congressman, sir. I mean, it's a war, and I think the 
priority is that, you know, we need to supplement the men that 
are actually out there trying to do the interdiction.
    Mr. Mica. I think you told me, too, that a large portion of 
the crime in your community is drug-related; is that true?
    Mr. Castaneda. Absolutely, sir.
    Mr. Mica. We held a hearing in my little community. I serve 
a beautiful area in central Florida. It's probably as nice a 
place as you want to live, and I usually hold up a headline 
that shows ``Heroin deaths increasing; cocaine deaths 
increasing.'' I didn't bring it with me; I just sent it back to 
the office. But that's my little community. Yours is 26,000. 
You had an officer shot to death. That was one horrible death. 
I can't imagine the pain that your community or the loss of 
that young mother left with children, as I understand it.
    But here in Washington, just before we left, they came into 
the streets and blew away an officer, just put the gun in and 
blew him away. In the streets of Washington, last year, they 
killed 399 individuals in our Nation's Capital. So it's 
everywhere. It's in my community. It's in Washington. We're 
going to be talking about prevention of underage drinking and 
smoking as a sort of centerpiece. It looks like we're pretty 
much zeroing in on the problem, doesn't it?
    Mr. Castaneda. Well, I'm not a politician, Mr. Mica.
    Mr. Mica. I guess I'm not a very good one either. My last 
question would be, you're in law enforcement down there on the 
front line in the border community, are these people just 
coming across carrying a little dope, or are they fairly well 
equipped? What is the status of the smugglers? Is it an amateur 
hour, or is there some well organized effort down there? Is it 
something we're just imagining?
    Mr. Castaneda. No, it's a very well organized effort, Mr. 
Mica. When you have armed smugglers with tracking devices, 
night vision glasses, walkie-talkie radios, they know pickup 
points, they have stash houses, I mean, you're basically 
talking about people that are organized and they know what they 
are doing.
    Mr. Mica. You weren't too aware of what the request was for 
surveillance of the border area, but as I understand it, there 
was some question as to whether we could provide as much 
surveillance information to the State, the Federal Government 
could, as was requested. Was that the problem, that there was 
too much surveillance, aerial surveillance requested?
    Mr. Castaneda. I'm not aware of that, Mr. Mica, so I really 
can't respond to that, sir.
    Mr. Mica. OK. What, in your estimation, then, would help, 
from the Federal level, in this war?
    Mr. Castaneda. Well, total commitment, sir. If you're going 
to go to war, you know, you need to dedicate it to the cause 
and make sure that we come out victoriously.
    Mr. Mica. Thank you.
    Mr. Chairman, I will yield back.
    Mr. Souder. Thank you, Mr. Mica.
    The gentleman from Georgia, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Chief, just as I came back in, after having been at a brief 
meeting, you were saying something that I think is entirely 
appropriate, and that is the war against drugs is, in fact, a 
war. Yet we have--and I think Congressman Mica might have 
touched on this, and maybe some others--I have been reading, 
during our district work period last week, the administration's 
1997 drug strategy, which I gather the President made public 
today.
    He states explicitly in there that it is not a war against 
drugs, because war is too harsh a term to use, that we need to 
have compassion and view people that do drugs as victims. That 
is a very subtle way of, I think, changing the entire 
complexion and character of what heretofore has been, in the 
view of our Government, one of the most serious challenges 
facing our country. So I appreciate your using the word drug 
rather than a social problem, or a disease, or something, 
because I think it really is a Drug War.
    I think I also heard Congressman Mica make reference to the 
fact that, throughout the administration's new so-called ``drug 
strategy,'' in many instances in that document, they link 
explicitly drug usage, mind-altering drugs, illicit or illegal 
drugs, whatever you want to call them, with teen use of tobacco 
and underage drinking. Both are serious problems, but in my 
mind don't come anywhere close to the danger posed to our 
society, and you and your men, by the drug trafficking and drug 
usage.
    Do you and your officers fear for their lives when they 
confront underage smokers, tobacco smokers?
    Mr. Castaneda. No, sir.
    Mr. Barr. Do you fear for your lives when you confront 
people of any age who are trafficking in mind-altering drugs?
    Mr. Castaneda. Yes, sir.
    Mr. Barr. Do you fear for your lives when you see people 
and come into contact with people who are under the influence 
of mind-altering drugs?
    Mr. Castaneda. Yes, sir.
    Mr. Barr. In your view, is this one of the most serious 
problems facing our society and our country today?
    Mr. Castaneda. It's an extremely serious problem, sir. Just 
to comment on our community, on the death of Jefferson Barr, I 
think a lot of people took their head out of the dirt and 
realized that we actually have a problem.
    Mr. Barr. I think that, nowadays, some people in this 
administration are putting their heads in the dirt. Not that 
we're condoning teen smoking, not that we're condoning teen 
alcohol usage, those are very serious problems, but, again, to 
constantly link these three as if they are somehow on par with 
each other, in terms of priorities and importance, I think does 
a disservice to people like you and your officers, who 
literally do put their lives on their line fighting this 
scourge on our society.
    I commend you for it, and also the work, Congressman 
Bonilla, that you have been doing on the front lines, as well, 
in the political arena. Thank you both very much.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you, Mr. Barr.
    I want to thank both of you for coming and stress that we 
obviously are spending millions and millions of dollars on 
treatment and education, as well, and police officers all over 
the country are involved in D.A.R.E. and other programs in the 
schools. There's not a parent who isn't concerned about trying 
to get their kids off of drugs and understand the importance of 
gateway drugs and that we need to focus on that.
    But the plain truth of the matter is, there's only so much 
we can do in Fort Wayne if we're getting flooded with the cheap 
drugs coming into the streets with the potency we are, and we 
should never back off of any facet of the war. I went to 18 
schools this past fall, talking about this issue.
    We're also kidding ourselves if we think we're going to be 
able to win just through a couple public service announcements 
and something in school, when it's flooding the rock music 
scene and the movie scene. We've got to have a war going on 
every front, and the starting is right where it's coming across 
the borders.
    Thank you for taking the time to educate us by coming all 
the way in from Eagle Pass, and thank you, Mr. Bonilla.
    Mr. Bonilla. Thank you, Mr. Chairman.
    Mr. Castaneda. Thank you, sir.
    Mr. Souder. Will the third panel please come forward.
    It is my distinct pleasure to welcome our third panel. We 
have with us today Tom Constantine, Administrator of the Drug 
Enforcement Administration; Douglas Kruhm, Assistant 
Commissioner, U.S. Border Patrol; and Mary Lee Warren, Deputy 
Assistant Attorney General, Criminal Division, Department of 
Justice. We thank you all for being with us today.
    If you will please stand. Obviously, Mr. Constantine has 
been here so often that he knows not to sit down.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses 
responded in the affirmative.
    Mr. Constantine, if you will go first. I appreciate you 
have been here so many times, and I think that, through the 
past year-and-a-half, a lot through your efforts directly here 
and through your staff, it has really helped us focus on the 
drug issue. While we may have disagreements from time to time 
with the administration, the fact is, it's great that we're all 
now fighting together to really raise the American 
consciousness on this issue. I want to congratulate you 
personally for your leadership with this.

   STATEMENTS OF THOMAS A. CONSTANTINE, ADMINISTRATOR, DRUG 
 ENFORCEMENT ADMINISTRATION; MARY LEE WARREN, DEPUTY ASSISTANT 
ATTORNEY GENERAL, CRIMINAL DIVISION, DEPARTMENT OF JUSTICE; AND 
  DOUGLAS M. KRUHM, ASSISTANT COMMISSIONER, U.S. BORDER PATROL

    Mr. Constantine. Congressman, thank you.
    Obviously, with the press of time, I have a long statement 
that we will file for your record. However, let me just kind of 
set the parameters around my testimony.
    Based on 37 years in law enforcement, both at the local 
level, the State level, and now at the Federal level--and I 
have, since I've been head of DEA, reviewed every major case 
that involves large scale narcotics trafficking between the 
United States and Mexico; I have visited every city, town, and 
county along the Southwest Border, all the way from Brownsville 
over to San Diego--I'm trying to set out for you how the 
organized crime systems that really manage and run these 
narcotics trafficking groups work and the effect that they have 
on the United States, and some of the issues that involve the 
Government of Mexico.
    Many times, as I look at people refer to these groups as 
some type of a complex or sophisticated business relationship, 
and title them as cartel or federations, I think that masks the 
true meaning of what are very vicious, destructive entities.
    The group from Cali, Colombia, and the four major 
trafficking groups in Mexico, out of Juarez, Tijuana, Sonora, 
and the Gulf, are, in my opinion, simply organized crime 
groups, only this time the leaders are not in Brooklyn or 
Queens, but rather, in many ways, existing in safety on foreign 
soil.
    The syndicate leaders, the Rodriguez-Orejuela brothers in 
Colombia, to Amado Carrillo-Fuentes, Juan Garcia-Abrego, Miguel 
Caro-Quintero, and the Arellano-Felix brothers, are simply the 
1990's versions of the mob leaders U.S. law enforcement has 
fought since the turn of the century, only this group of 
leaders are, in many ways, more dangerous and more influential, 
and have a great deal more impact on our daily lives than their 
domestic predecessors.
    While at one time we could control or investigate and, in 
many ways, manage our own outcome within the United States, the 
present organized crime system, in many ways, makes their 
influence pale in comparison. The individuals operating from 
headquarters locations absolutely influence the choices that 
many Americans make about where to live, when to venture out of 
their homes, or which schools to send their children to. The 
drugs and the attendant violence which accompanies the drug 
trade have reached into every community within the United 
States.
    Organized crime in the United States was addressed over 
time but only after we recognized the dangers that the Mafia 
posed to our everyday way of life. I can recall a time within 
the United States when there was an absolute rejection of the 
idea that there was a Mafia or organized crime. That changed in 
the fall of 1957, when a State police sergeant named Edgar 
Croswell raided an estate at Appalachia, NY, and uncovered all 
the leadership of organized crime in the United States.
    Following thereafter, Attorney General Bobby Kennedy was 
unequivocal in his approach to ending the reign of the Mafia, 
and consistent law enforcement policies and legislation were 
enacted which have resulted in substantial gains. Today, the 
Mafia, as we know it in the United States, has, in many ways 
been decimated and is a fragment of what it once was.
    At the height of its power, those groups were in the hands 
of a few major players within our own criminal justice system. 
All decisions were made within the United States, orders were 
carried out on U.S. soil, and while I know, having worked those 
cases, it was not easy to build them against the Mafia leaders, 
law enforcement knew that once a case was made, the subject 
would be located, arrested, and sent away to jail for a very 
long period of time.
    That is not the case with today's organized crime. They are 
strong, sophisticated, destructive organizations, and now those 
decisions are made virtually in sanctuaries in Cali, Colombia, 
and Guadalajara, Mexico. Even the day-to-day decisions as to 
where to ship the cocaine, which cars their workers in the 
United States should rent, which apartments should be leased, 
which marking should be on the cocaine package, which contract 
murders should be ordered, which official should be bribed and 
how much, are decisions made outside of the United States.
    These are shadowy figures who have armies of workers in 
Colombia, Mexico, and the United States, but these workers 
answer to them via daily fax machines, cellular phones, and 
pagers. These armies carry out killings within the United 
States: 1 day an outspoken journalist; 1 day a courier who had 
lost a load; the next an innocent bystander caught in the line 
of fire, all on the orders from the top leadership.
    They operate from the relative safety of protected 
locations and are free to come and go as they please within 
their home countries. These syndicate bosses have at their 
disposal airplanes, boats, vehicles, radars, and communications 
equipment which in many ways rival that of small countries.
    It is difficult, sometimes almost impossible, for U.S. law 
enforcement to locate and to arrest the Mafia leaders without 
the assistance of law enforcement in those host countries. 
Their communications are coded. They are protected by corrupt 
law enforcement officials.
    Despite, often, pledges of cooperation, they have not been 
able to apprehend the syndicate leaders, and law enforcement 
authorities have been unable to even locate them. Even if they 
are located, the Government is often not obligated or does not 
desire to extradite, to send them to the United States to stand 
trial before a jury of the peers of those whom they have 
injured.
    In Mexico, as discussed today, as in any other country 
where mafias or organized crime have flourished, two things are 
vital and important: there has to be corruption, and there has 
to be an intimidation of law enforcement. They cannot thrive, 
they cannot exist unless the law enforcement officials have 
been bribed and corrupted and the witnesses fear for their 
lives. It's a lesson that we learned full well in the 1930's, 
1940's, and 1950's.
    We can't really talk about the traffickers from Mexico 
without a little historical reference to the group from Cali, 
Colombia, probably the most sophisticated, powerful organized 
crime syndicate that the world had ever seen. As they assumed 
greater power and control and money, their relative impunity 
from arrest, at least until 1995 and 1996, allowed them to 
amass fortunes where they ran these multibillion-dollar 
corporations.
    They used landing areas in Mexico and often were able to 
evade United States law enforcement officials, and eventually 
made important alliances with transportation and distribution 
experts in Mexico. There has been intense law enforcement 
pressure focused on the Cali leadership by the brave men and 
women of the Colombian National Police, in 1995 and 1996.
    All of the top leadership of the Cali organized crime 
systems are now either in jail or dead. The fine work was done, 
much of it by Gen. Serrano, who appeared before your 
subcommittee only 2 weeks ago, and a host of other CNP 
officers, many of whom gave their lives.
    Since their imprisonment, on sentences which I must tell 
you are ridiculously short and not really a serious deterrent 
to drug trafficking in Colombia, traffickers from Mexico have 
now taken on some greater prominence. The alliance between 
these two groups had benefits for both sides.
    Traditionally, the traffickers from Mexico have long been 
involved in smuggling marijuana and heroin. As they brokered 
the distribution routes throughout Mexico, the group from Cali 
was concerned about the security of their loads. They made a 
commercial arrangement with the traffickers from Mexico, which 
reduced their potential losses.
    This agreement entailed the Colombians moving cocaine from 
the Andean region to Mexican organizations who then assumed the 
responsibility of delivering the cocaine into the United 
States, and originally turning it over to organized crime 
systems from Colombia that are operating within America.
    The majority of cocaine entering the United States 
continues to come across this border. There, however, is new 
evidence that traffickers in Mexico have gone directly to 
sources of cocaine in Bolivia and Peru, in order to circumvent 
Colombian middlemen. In addition, Mexico is now responsible for 
being the primary producer and trafficker of thousands of 
pounds of methamphetamine, most of which is distributed within 
the United States.
    There are several major traffickers in Mexico. I will 
briefly discuss them as we put a chart up with their pictures. 
These are the leaders of the major organized crime systems in 
Mexico. Most of them are already under indictment for crimes 
that they have committed within the United States.
    The Department of Justice has submitted provisional arrest 
warrants for many of these subjects, and only one, to my 
knowledge, Juan Garcia-Abrego, because he was a dual citizen, 
has been sent back to the United States to face justice. The 
others, in many ways, have escaped law enforcement action and 
have suffered little, if any, inconvenience from their criminal 
activities.
    The first, which has been mentioned, and this is only one--
and I would suspect it's important not to indicate that this is 
the only organized crime leader in Mexico, because I think that 
would be a mistake; there are many powerful syndicates 
operating out of that country--but the one who has received the 
most attention in the paper recently is Amado Carrillo-Fuentes, 
the head of the so-called ``Juarez Cartel.''
    He is the individual linked in the papers and linked in 
reports of the corruption and bribery of Gen. Gutierrez, the 
commissioner and the head of the INCD, which is the equivalent 
of the DEA in Mexico. He is associated with the Rodriguez-
Orejuela organization in Cali, and the Ochoa brothers in 
Medellin. He handles huge shipments of cocaine from Colombia. 
They have regional bases in Guadalajara, Hermosillo, and 
Torreon, and those are merely storage locations to move the 
drugs closer to the United States.
    The scope of his financial network is staggering, and 
probably much of it is unknown in exact detail to us. We know 
that he often forwards $20 million to $30 million to Colombia 
from each major operation or shipment. Like his Colombian 
counterparts, he is sophisticated in technology and 
countersurveillance. He has become so powerful that he is even 
seeking to expand his market into traditional Colombian 
strongholds on the East Coast of the United States.
    Carrillo-Fuentes, who is the subject of numerous separate 
United States law enforcement investigations, has been indicted 
in Florida and Texas, and, again, still remains a fugitive, 
unarrested, in Mexico.
    The second is Miguel Caro-Quintero. He's the brother of 
Rafael Caro-Quintero, the individual who was responsible for 
the kidnapping, torture, and murder of a DEA agent in Mexico in 
1985. He also is a major trafficker in cocaine, in Mexican 
heroin, and marijuana. Miguel Caro-Quintero is the subject of 
several indictments in the United States, and currently the 
subject of provisional arrest warrants issued by the U.S. 
Government.
    Yet, when I was in Mexico City in April of last year, and 
mentioned the fact that Miguel Caro-Quintero was a major 
trafficker and should be subject to arrest, he immediately 
called a radio station in Hermosillo, indicating that he was 
bothered by statements that I made and he was rather an 
innocent rancher, and that the charges were untrue. He had the 
audacity to give his address and invite law enforcement 
officials from Mexico and the United States to visit him, yet 
he remains at large.
    The third group which you will hear a great deal about is 
the Arellano-Felix brothers, operating out of San Diego, a very 
powerful, very aggressive, and undeniably perhaps the most 
violent. It extends its tentacles directly from high echelon 
figures in the law enforcement and judicial systems in Mexico 
to street-level gangs in the United States. They operate 
primarily in the Mexican States of Sinaloa, Jalisco, Michoacan, 
Chiapas, and Baja, California. From Baja, the drugs enter the 
United States, the primary point into the organized crime 
systems in America.
    Reports from the Mexican Government indicate that key 
family members of the Arellano-Felix brothers reportedly 
dispense an estimated $1 million weekly in bribes to Mexican 
Federal, State, and local officials who assure that the 
movement of drugs continues to flow unimpeded to the gateway 
cities along the Southwest Border.
    They are well armed, well trained security forces, and 
described by law enforcement officials as paramilitary in 
nature. The enforcers are often hired from violent street gangs 
in the cities and towns in both Mexico and the United States. 
They are dispatched to assassinate targeted individuals in 
Mexico and the United States, and they send a clear message to 
those who would attempt to utilize the Tijuana corridor without 
paying the area transit tax. A joint task force, composed of 
the DEA and the FBI, has been established in San Diego to track 
and investigate their operations.
    The Amezcua brothers are the individuals primarily 
responsible for the shipment of ephedrine from Europe and from 
Asia into Mexico, and then into the United States, and for the 
manufacture of methamphetamine.
    The Guzman-Loera group also transports cocaine from 
Colombia through Mexico, and has been named in numerous 
indictments, was arrested in Talisman, Mexico, for narcotics, 
homicide, and cocaine trafficking, and he is presently 
incarcerated at the maximum security prison in Mexico.
    One thing that I think is often missed, and I think if you 
listened to Chief Castaneda--and I was at Eagle Pass this 
summer myself--is that these organizations have a tremendous 
impact and make victims out of U.S. citizens.
    To look at Eagle Pass and to talk to these ranchers, and to 
see the people who have lived on this property all of their 
lives, who are afraid to go down to the river and to use a boat 
that they have on a dock, I asked them why? Their fear was that 
they would witness a murder or they somehow would witness a 
crime. They then would be somebody who would have to be 
eliminated by the groups involved.
    Many of them were interested in selling their property. 
Often the property appears to be being purchased by groups from 
the organized crime systems out of Mexico, so, in essence, the 
border completely disappears at that point in time.
    There has been outstanding work, I'm sure, by the chief, 
especially by the Border Patrol, which is an unsung group of 
heroes in this whole battle. Not only have they lost the life 
of an agent, they are dedicated, and they are the individuals 
who are right in the middle of this. I have watched them, and 
I've been very impressed. Also, the Texas Department of Public 
Safety has made their life improve to a degree.
    The DEA information on the Arellano-Felix gang, to give you 
a sense of the impact on the United States, we know that they 
have hired a group out of the city of San Diego, CA, called the 
Logan Heights Calle 30, to carry out executions and to conduct 
security for the distribution of their operations.
    Our DEA violent task force has arrested six members of this 
group, along with the San Diego Police Department, for the 
murder of a man and his son in San Diego. Since that time, 49 
members of this gang have been arrested by the narcotics task 
force in San Diego, ranging from drug trafficking to crimes of 
violence.
    On December 11, 1996, in Coronado, CA, in San Diego County, 
Fernando Gutierrez was shot five times in the face during rush 
hour, in an exclusive neighborhood. This death was allegedly 
ordered by the Arellano-Felix brothers from Tijuana. There have 
been 26 homicides in 1993 over the control of the 
methamphetamine traffic.
    Our role, as law enforcement officials--and that's how I 
look at it, as an organized crime investigation--we have joined 
together first with the FBI, now with the Justice Department, 
the Criminal Division, the Border Patrol, Customs, and 
virtually every State and local agency, and we have targeted 
these organized crime groups on the Southwest Border.
    We have been able to identify them. We know how they 
operate. We know their transportation systems. But they are 
highly compartmentalized, use sophisticated technology and 
numerous workers to accomplish very specific tasks. We are 
attacking, trying to get the command-and-control system and the 
leadership.
    Unfortunately, although we can get the leadership in the 
United States, and we can take their system down, and we've 
been very effective, we are very frustrated because we cannot 
use this same information to reach the organizations' bosses in 
Mexico or their current counterparts in Colombia.
    Criminals such as Carrillo-Fuentes and the Arellano-Felix 
group personally direct their organizations, and until we can 
garner the complete cooperation of law enforcement officials in 
Mexico, we will never truly be effective in stopping the flow 
of drugs from that country.
    The strategy is anchored in our belief that the only way of 
successfully attacking any organized crime syndicate is to 
build strong cases against the leadership. We have done that in 
the United States with a great deal of work, over a long period 
of time. After 30 years of doing that, we can see a steady 
degradation of their ability to conduct organized crime 
business in the United States.
    We spoke to you, sometimes in testimony, often in personal 
briefings, about what we call the Zorro II investigation. This 
was one of those combined Southwest Border investigations where 
we were able to arrest 156 major principals in those 
organizations, seize $17 million along with 5,600 kilograms of 
cocaine. However, and perhaps most importantly, neither the 
Colombian nor the Mexican leadership of these groups that are 
controlled have been arrested.
    Mr. Souder. Mr. Constantine, if you can kind of summarize 
here. We will insert your whole statement in the record.
    Mr. Constantine. Perhaps the most difficult part--and I 
will close with that--is two things: One is the corruption 
intimidation. You have seen the impact of the commissioner of 
the INCD being apparently arrested in the last 7 days. The 
papers filed by the Government of Mexico in San Diego indicate 
that the State attorney general and almost 90 percent of the 
law enforcement officials and judges in Tijuana and Baja have 
been compromised.
    What this has meant for us, and this has built over a 
period of time, is that there is not one single civilian law 
enforcement institution in Mexico with whom DEA has a really 
trusting relationship. That relationship is absolutely 
essential.
    We have talked with--and I agree with Ambassador Gelbard--
President Zedillo has made this a priority in meetings that I 
have attended. As a career law enforcement official, I give 
credit to people who will do a corruption investigation inside 
their agency, even though it is embarrassing. However, all of 
the types of tools and processes we have in place, and all of 
the legislation, have, in many ways, been placed in a situation 
where they have been dysfunctional at this period of time 
because of the corruption issue.
    I think that is the No. 1 improvement that has to be made 
before we can get on to the drug enforcement. Unfortunately or 
fortunately, the role of conducting corruption investigations 
in Mexico is not the responsibility of the DEA or any other 
United States agency. That responsibility will have to fall to 
that government.
    There is much more in detail in my statement. I thank you 
for the time.
    [The prepared statement of Mr. Constantine follows:]
    [GRAPHIC] [TIFF OMITTED] T1196.003
    
    [GRAPHIC] [TIFF OMITTED] T1196.004
    
    [GRAPHIC] [TIFF OMITTED] T1196.005
    
    [GRAPHIC] [TIFF OMITTED] T1196.006
    
    [GRAPHIC] [TIFF OMITTED] T1196.007
    
    [GRAPHIC] [TIFF OMITTED] T1196.008
    
    [GRAPHIC] [TIFF OMITTED] T1196.009
    
    [GRAPHIC] [TIFF OMITTED] T1196.010
    
    [GRAPHIC] [TIFF OMITTED] T1196.011
    
    [GRAPHIC] [TIFF OMITTED] T1196.012
    
    [GRAPHIC] [TIFF OMITTED] T1196.013
    
    [GRAPHIC] [TIFF OMITTED] T1196.014
    
    [GRAPHIC] [TIFF OMITTED] T1196.015
    
    [GRAPHIC] [TIFF OMITTED] T1196.016
    
    [GRAPHIC] [TIFF OMITTED] T1196.017
    
    [GRAPHIC] [TIFF OMITTED] T1196.018
    
    [GRAPHIC] [TIFF OMITTED] T1196.019
    
    [GRAPHIC] [TIFF OMITTED] T1196.020
    
    [GRAPHIC] [TIFF OMITTED] T1196.021
    
    Mr. Souder. I thank you, and it was helpful to lay out the 
history before you got into the final points. We will draw out 
some more in questions, too.
    Ms. Warren.
    Ms. Warren. Thank you, Mr. Chairman and members of the 
subcommittee, for this opportunity to address you at what is 
both a difficult and critical time for the United States.
    The events of last week, the arrest of the INCD 
commissioner, are sobering reminders of the power and the reach 
of these major trafficking organizations. In this case, it 
appears to be the Amado Carrillo-Fuentes organization. The last 
6 months and the Administrator's testimony just echo the fact 
that we are overwhelmed in Mexico, and drugs flowing into the 
United States, with the violence of these groups and, as well, 
the corruption that they spawn.
    Yet, at the Department of Justice, we also understand that 
we do not have the option of not working with our neighbor, 
Mexico. It will not serve the interests of either of our 
countries. Instead, we must proceed in a cautious way, with 
measured steps, and with an aim to achieve tangible results, 
borne of the cooperation against a shared threat.
    I would like to touch on some of the initiatives that we 
are working on, advise you of some of the obstacles we have 
faced and how we are addressing them, and something of our 
United States-Mexico justice relationship.
    The Administrator spoke of the Southwest Border Initiative 
involving the major Federal law enforcement agencies, drug law 
enforcement agencies, as well as the prosecutors. It is an 
extraordinary step for law enforcement to be working in such a 
cooperative and coordinated way, and, frankly, it is the only 
way we will be able to achieve results against such powerful 
groups.
    We have had the success of the Operation Zorro II 
investigation that he spoke of. In addition to that, we were 
able to do the final cleanup in the Juan Garcia-Abrego 
investigation that has now led to his sentencing of 11 life 
terms.
    In addition, another case that you might be interested in 
is one that we refer to as the Tunnel Case, in the southern 
district of California, where members of the Guzman-Loera 
organization not only traveled over land with their drugs into 
the United States, but tunneled underneath the border from 
Mexico, coming up in Otay Mesa, using a 1,400-foot tunnel under 
the ground to transport their drugs into the United States and 
then to return the drug proceeds to Mexico. The leading 
defendant found in the United States has now been convicted and 
faces a mandatory life term for that offense.
    The key to the successes in these operations has been the 
coordination and the cooperation. It has also involved a lot of 
training in sophisticated investigative methods. These 
investigations rely on a great deal of court-authorized wire 
taps that take more training for our investigators and 
prosecutors. The Southwest Border Initiative has undertaken 
that training.
    In operational terms, perhaps one of the best ways we have 
to make inroads against the Mexican-based criminal drug 
organizations has been through the United States-Mexico border 
task forces. The mission of the task forces, composed in the 
past of INCD officers, DEA agents, FBI agents, and Customs 
agents, has been to target and dismantle those major 
organizations in the various geographic locations just South of 
our border.
    They work through sharing law enforcement intelligence, in 
the hopes of developing compelling prosecutions of these major 
traffickers. It has also been sort of the laboratory or on-the-
job training in what investigative techniques there are and how 
cases can be developed; training that in the past has clearly 
not been available to the Mexican officers.
    A fair assessment of the performance of the task forces to 
date would be mixed, at best. There have been some successes. 
These task forces should serve as a model of what law 
enforcement can and should be in the counternarcotics effort.
    However, there have been obstacles posed by Mexico's 
failing to adequately fund the task forces--DEA has covered 
most of the expenses of the task forces--Mexico's failing to 
provide appropriate status and security guarantees for the 
United States participants, as well as the lack of training and 
continuity of the Mexican staffing. These latest revelations of 
corruption only further hinder and set back the progress of 
this effort to date.
    There are many ways that we work in a United States-Mexico 
relationship. Let me just review swiftly the hierarchy of that 
cooperative effort. At the Cabinet level, there is the 
binational commission. The Attorney General chairs a 
subcommittee of that group on legal issues and counternarcotics 
issues. A high level contact group you know of and has been 
spoken of. A third is a senior law enforcement plenary group 
led by the deputy attorney general from Mexico and myself, 
along with representatives from the law enforcement agencies on 
both sides.
    Much of the substantive work of all these groups is done by 
working groups under them. The larger groups offer an 
opportunity for an exchange of ideas and criticism, at times. I 
would like to review with you just some of the efforts of the 
working groups.
    For example, in the fugitive and mutual legal assistance 
area--this is, of course, a major concern to the Justice 
Department, and this is an area that has required our constant 
work and attention and prodding over the past few years--there 
is a good report.
    In 1996, Mexico extradited 13 persons, including 6 for 
narcotics offenses, as compared to a total of 5 extradited in 
all of 1995. Also remarkable, for the first time, a Mexican 
national was extradited to the United States, and a dual 
national was extradited, as well. We are currently seeking 
extradition of numerous individuals from Mexico on a wide range 
of different crimes, including the major narcotics trafficking 
offenses.
    We have had a major frustration eased a bit, in recent 
times, in our mutual legal assistance. We have sought such 
things as bank records and telephone records in support of our 
prosecutions, our investigations in the United States. We are 
beginning to get faster responses with those important 
documents.
    In the past year, in counternarcotics, Mexico did pass 
important laws in their organized crime laws; frankly, in some 
areas that we urged upon them, in terms of evidence-gathering. 
It was clear to us that there was no way that they could build 
cases against the major traffickers without the availability of 
court-authorized electronic surveillance. We advised them of 
that repeatedly, offered the U.S. law as a model in the balance 
of right to privacy and the need for law enforcement to be able 
to do its investigations.
    They have now enacted many new evidence-gathering 
authorities that should assist in developing cases. They have 
yet to implement those. We have to help in training, but they 
need a plan on how they will implement wire taps, plea 
bargains, immunities for witnesses. In money laundering, they 
passed a law making money laundering criminal, but have yet to 
publish or implement the necessary regulations, in our mind.
    In the area of corruption, it has the potential to 
undermine the well-meaning efforts of both governments. We can 
only be dismayed by the latest revelations from Mexico. At the 
same time, we would do well to remember that corruption exists 
on both sides of the border, albeit in a more pervasive form to 
the South.
    In the last 4 years, on our side of the border, U.S. law 
enforcement agents have been convicted of corruption-related 
crime along the border. They have received periods of 
incarceration upon those convictions, and we are committed to a 
course of vigorous anticorruption efforts on our side. The 
safety and protection of our citizens and law enforcement 
officers, and the public confidence, depend on this.
    The solution to endemic corruption in Mexico is not to 
cordon ourselves off from them. They are an indispensable 
partner. President Zedillo has identified the principal threat 
to Mexico's national security as these international 
traffickers.
    The best approach that we see, in simple words, is to work 
with the people we can trust, based on the information we have, 
seeking as much information and expanding that information as 
much as possible; design safeguards in our operations in case 
they should later be compromised by the corrupting influences 
of the traffickers.
    An example of the safeguards would be the full vetting of 
the task force agents, vetting to include security 
questionnaires, checks of all of our law enforcement indices, 
urine testing for drugs, and polygraph examinations. This 
vetting process, combined with training, minimum time 
requirement, and perhaps added salary or bonuses to reflect 
that added training, might increase our confidence that the 
task forces could be substantially free of corruption and have 
the personnel capable of carrying out the task.
    Ultimately, of course, we support the efforts of President 
Zedillo, as manifested by his many public statements to root 
out corruption in Mexican society. This is corruption that has 
grown there over a period of generations, and we see it as a 
very long-term process. Until that process is well along the 
way, the best approach we see of working with Mexico is to work 
forthrightly on agreed-upon action items, with adequate 
safeguards for our personnel and our information.
    It will take a long time for Mexico to build fully 
professional, competent, corruption-free law enforcement and 
judicial institutions. We are committed to doing everything we 
can to support their efforts to achieve those goals. In the 
meantime, we must and will press the Mexican Government to 
extradite significant criminals, including the drug kingpins, 
who are wanted in the United States, to bring to this country 
where our law enforcement and our judicial infrastructure is 
today better able fully and fairly to prosecute, convict, and 
incarcerate them.
    Thank you.
    [The prepared statement of Ms. Warren follows:]
    [GRAPHIC] [TIFF OMITTED] T1196.022
    
    [GRAPHIC] [TIFF OMITTED] T1196.023
    
    [GRAPHIC] [TIFF OMITTED] T1196.024
    
    [GRAPHIC] [TIFF OMITTED] T1196.025
    
    [GRAPHIC] [TIFF OMITTED] T1196.026
    
    [GRAPHIC] [TIFF OMITTED] T1196.027
    
    [GRAPHIC] [TIFF OMITTED] T1196.028
    
    [GRAPHIC] [TIFF OMITTED] T1196.029
    
    [GRAPHIC] [TIFF OMITTED] T1196.030
    
    [GRAPHIC] [TIFF OMITTED] T1196.031
    
    [GRAPHIC] [TIFF OMITTED] T1196.032
    
    [GRAPHIC] [TIFF OMITTED] T1196.033
    
    [GRAPHIC] [TIFF OMITTED] T1196.034
    
    Mr. Souder. Thank you very much for your testimony, Ms. 
Warren.
    Mr. Kruhm.
    Mr. Kruhm. Mr. Chairman and members of the committee, I am 
very pleased to be here to address you concerning the U.S. 
Border Patrol's role in this Nation's anti-narcotic and 
dangerous drug initiatives.
    The Border Patrol is the mobile uniformed enforcement 
division of the Immigration and Naturalization Service and is 
the primary Federal agency for drug interdiction between ports 
of entry. The U.S. Customs Service is responsible for 
interdiction at the ports, with support from INS inspectors. 
The Drug Enforcement Administration has the primary 
responsibility for drug investigations, as you have seen the 
briefing from the Administrator this afternoon.
    The Border Patrol maintains a direct presence along the 
nearly 2,000-mile Southwest Border where the Patrol is staffed 
by 5,400 agents. Congress and the administration have made 
control of illegal immigration a top priority and have worked 
to provide INS with the resources necessary to support an 
enforcement strategy that is making a difference.
    This strategy restores the rule of law to the Southwest 
Border. Our goals are clear: deter illegal immigration, drug 
trafficking, and alien smuggling between the ports of entry, 
and facilitate legal immigration through the ports of entry. We 
appreciate the resources and policy support which Congress has 
provided in the last 3 years.
    The INS border control plan has several key objectives: to 
provide the Border Patrol and other INS enforcement divisions 
with the personnel, equipment, and technology to deter, detect, 
and apprehend unauthorized aliens, illicit drugs, and other 
contraband; to regain control of major entry corridors along 
the border that have been controlled by illegal migrants and 
smugglers; and to close off the routes most frequently used by 
smugglers and illegal aliens, and to shift traffic to areas 
that are more remote and difficult to cross, giving us the 
tactical advantage.
    Intelligence reports and actual experience indicate that 
drug smuggling and alien smuggling are often linked. Illegal 
migrants seeking assistance from alien smugglers often become 
mules carrying narcotics as part of the price of passage to 
interior points in the United States. The Border Patrol employs 
a multifaceted strategy to deter and/or apprehend narcotics and 
alien smugglers along the border.
    At the immediate border, we deploy agents and utilize 
fences, high-powered lights, sensor systems, and other 
technologies such as cameras, and in some locations we even use 
horse patrols. We also employ a system of traffic checkpoints 
situated along major roads leading away from the border. These 
checkpoints are highly effective in the interdiction of both 
aliens and drugs.
    The Border Patrol has grown from around 3,900 agents in 
1993 to an expected level of 6,878 agents by the end of fiscal 
year 1997. The administration's goal is to have almost 7,400 
agents by the end of 1998.
    Beginning in 1994, we concentrated new Border Patrol agents 
in those sectors which have historically apprehended the 
largest number of illegal aliens, plus sectors which have 
experienced the greatest increase in illegal migrant flows. We 
also initiated strategies designed specifically for those 
geographical areas.
    Operation Hold The Line, begun in El Paso, TX, was designed 
to maximize the visibility of Border Patrol agents along a 20-
mile stretch of the border formed by the Rio Grande River. The 
goal was to preclude unauthorized entries into the city of El 
Paso.
    Operation Gatekeeper applied a similar deterrent strategy, 
beginning in October 1994, south of San Diego. Given the 
different terrain and makeup of border crossers, this operation 
combines immediate border visibility with an expanded support 
infrastructure, including technology, prosecution, and 
detention. In February 1995, we began tactical operations in 
Arizona with Operation Safeguard, in Nogales and later Douglas.
    In the fall of 1996, the McAllen Sector increased its anti-
smuggling efforts by targeting staging areas, drop houses, and 
citizen complaints. At the same time, McAllen is increasing 
enforcement activities at the immediate border by conducting 
joint operations with the U.S. Customs Service, Department of 
Defense, the U.S. Coast Guard, and State and local law 
enforcement agencies.
    We have seen dramatic success in each of these areas. Daily 
migration from Juarez to El Paso was cut by 75 percent in the 
first months of Operation Hold The Line. Since Operation 
Gatekeeper began, illegal entries into San Diego's Imperial 
Beach area and areas to the east of that have dropped by 60 
percent.
    Consistent with the beginning of a new tactical strategy, 
apprehensions in the McAllen Sector are now up 34 percent from 
January 1996 to January 1997. Local law enforcement officials 
attribute a decrease in crime in those communities, at least in 
part, to Border Patrol initiatives.
    We have continued to expand the use of technology in 
support of our agents in all of our Southwest Border sectors. 
We are installing IDENT terminals to fingerprint, photograph, 
and collect data on the aliens we arrest. A large portion of 
Border Patrol's drug seizures and a tremendous amount of real-
time intelligence are a direct result of electronic sensors 
placed along remote or inaccessible smuggling routes. The 
Border Patrol canine program and our horse patrol have also 
resulted in a significant number of arrests and drug seizures.
    Although investigation of narcotics cases is not a 
function, per se, of the Immigration Service or the Border 
Patrol, interdiction of narcotics is a primary part of our 
mission. The volume of Border Patrol drug seizures has climbed 
steadily from 150 tons of marijuana in fiscal year 1991 to 330 
tons in fiscal year 1996. Since 1991, we have seized 84 tons of 
cocaine.
    These interdictions have provided critical leads to the 
investigative agencies, contributing to the destruction of drug 
trafficking organizations and independent smugglers. The 
combined value of our drug seizures is nearly $2 billion. There 
is no dollar value that can be attached to the problems 
associated with these drugs if they had been allowed on our 
streets and in our schools.
    To give a further indication of the magnitude of our 
workload, we made 1.5 million arrests of illegal aliens along 
the Southwest Border during fiscal year 1996. In performing all 
of these tasks, the Border Patrol has formed effective 
partnerships with DEA, the FBI, Customs, the Department of 
Defense, the Department of State, and the Government of Mexico.
    INS has received significant support from the U.S. military 
and National Guard units, and they are currently serving as 
listening posts, observation post monitors, intelligence 
analysts, electronic technicians, helicopter pilots, vehicle 
and aircraft mechanics, bus drivers, sensor board monitors, low 
light level television operators, and firing range officers.
    Over the past several years, military and National Guard 
personnel have built over 41 miles of border fencing and 
barriers in California and Arizona. This year they will 
complete another 14.5 miles.
    The Border Patrol works with Mexican law enforcement along 
the border to stem border robbers preying on migrants, drug 
smuggling, and other criminal activity. We have created 
procedures and structures for a more rapid and coordinated 
response to specific criminal activity.
    In summary, let me say that the mission of the INS and its 
Border Patrol are committed and equipped to work in cooperation 
with other agencies to secure the external borders of the 
United States. Our approach emphasizes prevention through 
deterrence, flexibility to address vulnerable areas via 
comprehensive strategy, technology as a force multiplier, and 
redeployment of personnel and resources to key border areas.
    The U.S. Government has also made clear progress in 
regaining control along the Southwest Border. In short, we are 
successfully raising the cost and difficulty of entering the 
United States illegally. These efforts have also disrupted 
former routes for bringing in illicit drugs. They have forced 
smugglers and port runners to use ports of entry and 
untraditional routes to further their illegal activities.
    Regaining control of our borders is a commitment. We 
appreciate the attention of this committee to the problems we 
face and again thank the Congress for its support of our 
endeavor.
    I would like to add a personal note for the record. Just 6 
days ago, Border Patrol Agent Tony Betts was our latest officer 
to be shot in the line of duty. Fortunately, he is doing very 
well, and he's a very lucky young man. He was shot during an 
encounter with a horseback pack bringing in marijuana, and 
about 413 pounds were seized during that incident.
    Thank you.
    [The prepared statement of Mr. Kruhm follows:]
    [GRAPHIC] [TIFF OMITTED] T1196.035
    
    [GRAPHIC] [TIFF OMITTED] T1196.036
    
    [GRAPHIC] [TIFF OMITTED] T1196.037
    
    [GRAPHIC] [TIFF OMITTED] T1196.038
    
    [GRAPHIC] [TIFF OMITTED] T1196.039
    
    [GRAPHIC] [TIFF OMITTED] T1196.040
    
    [GRAPHIC] [TIFF OMITTED] T1196.041
    
    [GRAPHIC] [TIFF OMITTED] T1196.042
    
    [GRAPHIC] [TIFF OMITTED] T1196.043
    
    [GRAPHIC] [TIFF OMITTED] T1196.044
    
    [GRAPHIC] [TIFF OMITTED] T1196.045
    
    [GRAPHIC] [TIFF OMITTED] T1196.046
    
    Mr. Souder. Thank you very much. I hope you will express 
our sympathy and support for him, as well as the many other 
people on the front lines trying to protect our families and 
our kids.
    I would like to start with Mr. Constantine and a couple of 
questions here, going directly to some of your concerns about 
security. There are some questions that I want to raise, if 
anybody else has any additional insight into this.
    Do we currently know if undercover informants of law 
enforcement agents have been compromised, and when will we know 
if it is a severe security breach? What exactly happened in 
this relationship? I know it's publicity DEA didn't want. Every 
time they say this guy's name, they say, ``The DEA-like agency 
in Mexico.'' Obviously, we have grave concerns that security 
was breached.
    Mr. Constantine. Well, we operate on one basic assumption. 
When he took over that position in early December, he then had 
access to all of the information that was available in, in 
essence, their institute against drugs. I've seen some 
newspaper reports from his predecessor, Mr. Molinas Ruiz, who 
said he turned over to him all of the files.
    So any investigation that was being done on a Federal level 
in Mexico by law enforcement in Mexico was available to him. 
All of these binational task forces, which, as Ms. Warren said, 
have had mixed results, if not limited results, all of that 
information was available to him.
    Now, we are always very cautious about providing any 
information through law enforcement in Mexico, unless we can 
fully believe that it's somebody that's trustworthy and we will 
not get an informant hurt or an agent hurt. So, I mean, the 
General is not the first person in the hierarchy and in the 
structure of those antidrug agencies in Mexico who has either 
been arrested or removed, or sometimes assassinated.
    So it is our policy always to be very cautious. Many times, 
as of today, we just have information that we feel we cannot 
share with them, for those very reasons. What information the 
people from Mexico and Mexican law enforcement have in the 
files in that building that he reviewed, or who he put into all 
of those task forces, my assumption is that anything that was 
available to him has been compromised completely.
    Mr. Souder. Plus the DEA agents?
    Mr. Constantine. Well, DEA agents, by name and location, 
obviously, that information was known to him. Whether or not he 
provided that also, we don't know. We just operate under a 
complete assumption this individual was totally corrupt.
    His total purpose, obviously, in his own interest, it would 
look like he was taking that position to make himself richer 
and to provide information with one of the leading organized 
crime figures in the world. I must assume that there was 
nothing that he held back if he had it.
    Mr. Souder. Do we know if it was him who tipped off 
Mexico's most powerful trafficker, Fuentes, about a sister's 
wedding was going to be raided?
    Mr. Constantine. That, again, is our assumption, anytime 
that there were a series of arrests or raids planned. Early 
this winter, there was information, apparently, that there was 
a wedding to take place of Carrillo-Fuentes' sister, at a ranch 
in Mexico.
    The information that we later found out, long after the 
incident occurred, was that Carrillo-Fuentes was protected by 
Federal and local and State police acting as protectors of the 
organized crime figure, and the military was going to try to 
make an apprehension. We are now seeing reports that the 
information was then provided to Carrillo-Fuentes by either the 
military or law enforcement, so that he was able to escape and 
to avoid arrest.
    Given what we now know about Gen. Gutierrez, it's very 
possible he could have been a link in that, but there could 
have been others.
    Mr. Souder. I would like to ask this question of Ms. 
Warren, but others may have a comment on this, too.
    It's fairly shocking that, since Gutierrez had a 7-year 
relationship, had been in one of the military commander zones 
for more than the 2 years that they supposedly were going to 
do, had shared apartments under the name of the drug dealers, 
and a lot of that type of thing, that Ambassador Gelbard did 
not know of these problems. Did other agencies, such as 
anything that you are working with, know of this? If not, why 
not; and doesn't that cause grave concerns about how we are 
supposed to deal with Mexico?
    Mr. Constantine. Other than Ms. Warren, I'm probably the 
most appropriate one to answer that. First, the individuals 
dealing in the military, and that is an institution that DEA 
does not deal with, information about a military commander 
within the military would be very limited. Information that 
apparently was going on between he and other corrupt 
traffickers, I suspect, was kept, obviously, very confidential 
between them.
    As I've told you, they have vast technology available to 
them. They have corrupted more than one individual. Where 
anybody was going to provide information to the Government 
about corruption, assassination seems to be the immediate 
response to that, including numbers of high-ranking officials 
in law enforcement.
    So it's not unusual to me, in any way, that someone like 
that would not come to the attention of Government. I sense, 
somewhere along the line, that he owned all of this property or 
that he, in some ways, had some wealth. This is information, to 
this day, we don't have any of that information. We're reading 
the same thing you're reading in newspaper reports, and we have 
not yet been provided a report of the investigation that 
eventually led to his arrest.
    It was my understanding, from reading those newspaper 
reports, that the apartment that he eventually was living in, 
which was subject to question, was the same apartment that 
Carrillo-Fuentes went to in a big shootout in the Bajia Mar 
restaurant in Mexico City, in which there was an assassination 
attempt on his life, and that this was the same apartment. But 
that was only since he had been head of INCD and since early 
December.
    Mr. Souder. If the State Department and Justice Department 
and DEA don't know that somebody is on the payroll and corrupt 
for 7 years, how can we say they are fully cooperating with us?
    Mr. Constantine. Well, I can't speak for the Government in 
Mexico or to how they approach the individuals of their own. I 
can only tell you that when I was asked if I would take the job 
as head of DEA, even though I had 34 years with the New York 
State Police, lived in one house for 25 years, I was subjected 
to an intensive background and financial investigation.
    In the confirmation process, it was so refined that it came 
down that I had to get the original charter from a Rotary Club 
that I belonged to in Schenectady, NY, because there might be a 
conflict of interest between that charter and a high-level 
Federal position, which turned out there wasn't, thank heavens. 
But there was a very, very detailed examination of me, my 
family, and my life before I received that position.
    I suspect those are the types of procedures that are going 
to have to be put in place if you're going to develop--and you 
have to start someplace. I agree with Mary Lee. We can't 
disconnect from these agencies, and there has to be a 
beginning. Hopefully, this is the beginning, and there's a long 
road ahead of everybody to reach the type of stage that they 
need to be at to combat these organized crime systems.
    Ms. Warren. But there isn't that systemic review that we 
have in our system. There isn't, at least until very recently, 
even the existence of something like an Inspector General 
within the ranks of the various agencies, that we consider 
critical in law enforcement and in the military. There's a lot 
of learning that needs to be done. We were in the dark. I have 
every reason to believe that President Zedillo was in the dark.
    Mr. Souder. At least we can be confident, tomorrow morning, 
with our breakfast with Gen. McCaffrey, that if he says nice 
things about our DEA director, we have more background.
    Ms. Warren. At least as to the Rotary connection.
    Mr. Constantine. As long as he doesn't question my 
intelligence.
    But what happens with individuals like this is, people are 
afraid to come forward. You might get an anonymous phone call 
or an anonymous note from a mail drop, but witnesses are scared 
stiff of providing any information to Government. Because of 
the assassinations and because the corruption is so endemic in 
many of the law enforcement institutions, you don't know who 
you're providing the information to.
    Unlike the United States, where people, even with some 
hesitancy, are willing to step forward and be interviewed and 
provide information so you can conduct an actual investigation, 
that's not the case presently in Mexico.
    Mr. Souder. Thank you.
    Mr. Barrett from Wisconsin.
    Mr. Barrett. Thank you, Mr. Chairman.
    Mr. Constantine, I'm just looking at Newsweek magazine from 
today or yesterday, and they say, ``Newsweek has learned that, 
even as he was being briefed by U.S. officials, Gutierrez had 
been on a vast computerized DEA list called the `Narcotics and 
Dangerous Drugs Data Base,' or NADDIS. His NADDIS file said he 
had questionable relationships with drug people and that he was 
involved with drug cover-ups in the past, but no one passed 
that information along to the drug czar's office. In fact, 
McCaffrey received two classified reports giving Gutierrez a 
clean bill of health.''
    Can you comment on that?
    Mr. Constantine. I'm not familiar with the classified 
reports that the General would have been given. The 
announcement of Gen. Gutierrez came out of the blue to us and, 
I believe, also probably Gen. McCaffrey and other people in the 
American Government. We have no information. We looked again. 
There are two, I think, anonymous letters, dating back to 1988 
or 1994, that talk about Gutierrez as being corrupt, but no 
information or nothing that we could investigate or 
corroborate.
    We looked. There were no informants, no investigations, no 
wiretap information, no reports. So the sense that there were 
somehow established reports that linked him to organized crime, 
in that or anything that we would work with, just was 
nonexistent. I'm not sure why that's in the magazine, though.
    Mr. Barrett. So you're saying it's false, then?
    Mr. Constantine. That magazine report?
    Mr. Barrett. Yes.
    Mr. Constantine. Yes.
    Mr. Barrett. What type of interaction would you have with 
the State Department? I'm trying to figure out where this has 
fallen down.
    Mr. Constantine. Well, if we had information that came from 
a reliable, confidential source about anybody in criminality in 
this country or some other country, or we had picked up that 
information over a wiretap, or we had a defendant who decided 
to turn to be a witness and provided us with information that 
we could somehow corroborate or be substantial, obviously, in 
this Government, we would take it to a prosecutor, usually, the 
U.S. attorney's office, and try to start a corruption 
investigation.
    In other countries, we then provide that information to an 
Ambassador, so that the Ambassador can then approach the host 
Government executives to advise them that there is substantial 
information involving an individual, and that they then will 
have to take whatever action they take, either initiate a 
criminal investigation, do some type of an administrative 
action, or whatever political decisions they may have.
    But that is done continually around the world. However, 
what I think is important for everybody to understand is that 
you're dealing with a military system in a country where there 
is endemic corruption involving the drug trafficking issue, so 
people don't come forward and provide you with information that 
you can corroborate, or somebody in that type of institution 
may not come to your attention.
    Anytime--and we've done this again and again in many 
countries, including Mexico--where we have substantial 
information, we work through the Ambassador to make sure that 
information is provided to the host government.
    Mr. Barrett. Ms. Warren, I apologize, I was out of the room 
for part of your testimony, but you talked about the bilateral 
task forces. Who are the members of this again?
    Ms. Warren. In the past, they have been members from the 
INCD. The great bulk of them are the Mexican drug enforcement 
agents. But joining them have been DEA agents, and FBI agents, 
and Customs agents were to be assigned, working just South of 
the border, in Tijuana and Juarez, and then another group that 
works from Monterrey.
    Mr. Barrett. Given the testimony we've heard today about 
the rampant corruption, how can you have any confidence in 
having this type of arrangement with people in another country?
    Ms. Warren. Well, I think we have to institute and insist 
on those safeguards that I mentioned, that our agents are 
working with. We have gone through rigorous integrity checks. 
Those same checks are applied to those counterpart agents with 
whom they work on a day-to-day basis. Without those assurances 
and without our confidence in that vetting procedure, I don't 
think we can continue. It has to be.
    Mr. Barrett. Reading from the same Newsweek article, it 
states, ``In the mid-1980's, the Mexican Defense Ministry tried 
to put together an elite antidrug unit. Part of the requirement 
for the 45-man squad was passing a lie detector test that 
included the question, `Did you ever receive payments from drug 
traffickers?' So many military officers failed the test that 
the whole idea was scrapped.''
    Ms. Warren. Well, I won't comment on the reporting of that 
magazine. I do think it is possible. We have been able to, in 
other countries and at other times, put together such vetted 
units. I think it can be done, but we need to be rigorous and 
demanding of those safeguards here.
    Mr. Barrett. OK. Chief, from your perspective, are we 
winning or losing this fight?
    Mr. Kruhm. I think we're winning it in some geographic 
areas. There are other areas where we may be holding our own or 
not doing as well. I was just down on the border at 1 o'clock 
this Saturday morning, working with the agents down on the 
line, in the brush. You can certainly see the evidence that 
there's a lot of activity occurring down there.
    In other areas, I think we have very well and very ably 
demonstrated that we can put an appropriate mix of technology 
and resources down there. It includes having prosecutors. It 
includes having the investigators from DEA. You have to put the 
right number of people down there in order to be successful, in 
any geographic area, but you can't do it just with Border 
Patrol agents. You have to have that appropriate mix.
    Mr. Barrett. Do you think we have the appropriate resources 
devoted to border agents?
    Mr. Kruhm. I beg your pardon?
    Mr. Barrett. Do you think we have sufficient resources 
devoted to border agents at this time?
    Mr. Kruhm. Well, both the administration and Congress have 
a multiple year plan to get to X number of Border Patrol 
personnel. I think we have to reassess that every year and make 
sure that we're putting the right number of people out there, 
and that we're appropriately using that funding to buy the 
right technology and to put the right mix of personnel out 
there.
    Mr. Barrett. OK. Thank you.
    Mr. Souder. I wanted to ask a brief followup to a question 
I had and also Mr. Barrett. Were you not aware that when 
Gutierrez came to Mexico City he brought, as his top aide, 
Montenegro Ortiz, who had been already busted once for supposed 
drug trafficking ties, and he was in that office?
    Mr. Constantine. Personally, I was not aware of that, no. I 
knew that he had brought a number of people from the military 
with him when he took over INCD. I had not met him or seen him, 
or we had not been in any background investigation involving 
him.
    Now, I'd have to check with my country attache in Mexico 
City to see whether or not he was an individual that we were 
aware of.
    Mr. Souder. Thank you.
    Mr. Barr has to leave. If I can skip to Mr. Barr of 
Georgia.
    Mr. Barr. Thank you, Mr. Chairman.
    Is that OK, John?
    Mr. Mica. Yes.
    Mr. Barr. I had the opportunity, just last August, to go 
down to the border area, and it was the first time I had been 
there since a trip that I made as a U.S. attorney. I must say 
that there has been tremendous progress made in the border 
area, a lot of it very recently, and I was very pleased to see 
that. I think a lot of the moneys that have been made available 
through the Congress, through this administration and the prior 
administration, I think really are being used very, very 
effectively.
    There, of course, are a lot of things we can still be 
doing, but Assistant Commissioner Kruhm, I commend you and your 
men and women down there, because I think they are doing a 
tremendous job, and we have seen some very important successes 
and strong movement in the direction of really starting to get 
a handle on our border area.
    I do have some concerns about what it takes, from a policy 
standpoint, Ms. Warren, to get this administration interested 
in what's going on with Mexico. I go back, also, to one of the 
previous witnesses we had here. We have seen, and we heard 
today from the gentleman on your left there, who knows full 
well of whence he comes and what he speaks of, we have heard 
and seen irrefutable evidence that the Mexican Government is 
rife with corruption from the top to the bottom.
    I think it is fair to say that the lives of the men and 
women that work under these two gentlemen are at risk because 
of what is going with the Mexican Government. Yet all the 
President can say about Mexico is how wonderful they are for 
paying back a bunch of money that we loaned them, that some of 
us think he had no legal right to loan them in the first place, 
nothing about drugs, nothing about the problems.
    We have seen, just within the last few days, the top 
Mexican general, who apparently has been on the take, not for a 
week, a month, 2 months, but years, and we haven't heard 
anything about the administration being even concerned, really, 
except a little bit today, about decertification. We're hearing 
reports that the administration may be considering accelerating 
the certification process, making a decision even before the 
deadline of March 1.
    We have seen, I think, a very serious national security 
breach here, in this case and heaven knows how many other cases 
that we don't know about. All the administration can tell us, 
from the Department of Justice, is, ``We must proceed in 
cautious, measured steps, with an aim of achieving tangible 
results borne of cooperation against a shared threat, to work 
with people we feel we can trust.'' We can't trust these 
people; that's the whole problem.
    My question to you, please, is, from the administration's 
standpoint, what is it going to take to get the administration 
to say, look, you all have a corrupt government? You're putting 
the lives of our men and women who are trying to work with you 
at risk. You're handcuffing their ability. You either stop it--
you're not going to get any more money from us--you either get 
your house in order, because we don't have a generation to wait 
until they develop their country.
    We're not society-building here. We have an immediate 
threat on our border with Mexico and we can say all the nice 
things we want about what a great partnership we've had over 
the years with Mexico, but the fact of the matter is, we have 
an absolute crisis on our border with Mexico. We have a crisis 
with this Government of Mexico, because it's their watch.
    We're not hearing anything from the administration except a 
bunch of theoretical stuff about how nice it is to work with 
them, and we're going to work with them for the next generation 
to try and buildup a system like ours. Why don't we hold their 
feet to the fire? I mean, can't we do that? What is it about 
Mexico that this administration is refusing to even acknowledge 
that we have to hold their feet to the fire, to give these men 
the security and the tools that they need in order to do their 
job?
    We're doing a good job on our side of the border, although 
I was curious to see that, in your paper here, and you did 
mention this in your oral comments, you're comparing corruption 
on our side of the border with Mexican. I don't think they are 
even in the same ballpark. Sure, we have problems from time to 
time with an officer; any country does. But to draw any sort of 
comparison to the problems in Mexico with problems on our side 
of the border I think is just uncalled for.
    What is it? What do we have to see happen in order for us 
to go to the Mexicans and take a hard stand? Because we are not 
doing it now, and you can't tell me with a straight face that 
we are.
    Ms. Warren. Let me try to respond to your question, if it 
is a question.
    Mr. Barr. It is.
    Ms. Warren. I think the administration has shown the 
seriousness that they take the drug problem and the drug 
problem from Mexico. They have the Administrator of the Drug 
Enforcement Administration fully engaged on this and the strong 
support of the attorney general on this. The planned growth of 
the Border Patrol worked very carefully between the 
Commissioner of INS and the attorney general.
    The administration's response, certainly from the 
Department of Justice, and I can really only speak for that, is 
not one of looking through rose-colored glasses. When I speak 
of--and I spoke of the corruption on both sides--I made very 
clear that it is a much deeper and more extensive and more 
threatening problem down below our border. I did that in my 
oral statement as well as in my written statement.
    Mr. Barr. I apologize. I didn't hear that. I still think 
it's an inappropriate comparison, but I appreciate the fact 
that you mentioned it.
    Ms. Warren. Corruption and the pursuit of corruption, on 
both sides of the border, has to be a priority for us. Our 
people are threatened by it. Our law enforcement agents are 
threatened by corruption and certainly the confidence of the 
public deteriorates with that corruption. We need to be 
vigorous on that and treat it as a very high priority. Thank 
goodness we have all along our law enforcement history viewed 
it the same way. So we don't have generations of rottenness 
that our neighbor to the South has.
    How do we go forward? I think we have to recognize that we 
have a shared problem. Our drugs are coming up from there, and 
we're not just going to build the highest fence. I told you 
about an instance where they went under the border, so the 
fence wouldn't work anyway.
    Mr. Barr. I mean, I've seen that while we were down there 
in August. I'm not saying that we have to build a higher fence. 
We are doing some good things by building stronger fences, but 
what are we going to do to hold their feet to the fire?
    Ms. Warren. I think we have to be--and law enforcement is 
trying to do this; Department of Justice tries to do it--to 
recognize, factually, what the improvements are, to press for 
additional improvements. A lot of their organized crime bill, 
and this evidence-gathering authority that they now have, 
certainly came with the initiative of President Zedillo, but 
with the urging of the Department of Justice that they could 
not proceed in the 19th century, this was the 20th century, and 
they needed those kinds of authorities.
    We have to be factual in relating what is working and what 
is not; what is improving, what can be further improved. Our 
extradition relationship has improved.
    Mr. Barr. Well, it may be. I suppose it's all relative.
    Ms. Warren. It's not good enough, and we shouldn't rest 
where we are.
    Mr. Barr. We have over 100 pending extraditions, 52 of 
which, according to information that I have, are drug-related. 
Yet only 13 of those have been formally filed by United States 
authorities in Mexico.
    Mr. Barrett. Regular order, Mr. Chairman.
    Mr. Souder. Mr. Barr, we're going to go a second round, if 
you come back.
    Mr. Barr. OK. Can I just finish this question? Thirty-nine 
of them apparently fall into the category of provisional 
requests, which means that we haven't even formally filed them. 
I mean, it seems to me that we're not--maybe it's even worse 
than I thought, now that I mention it--not only are we not 
holding their feet to the fire, we're not even pressing as hard 
as we can on extradition, since you mentioned that.
    Ms. Warren. Well, filing the provisional arrest request is 
the arrest warrant request.
    Mr. Barr. So there's nothing further that has to be done on 
those?
    Ms. Warren. Until the person is apprehended, we wouldn't 
provide that sometimes 60- or 100-page document, the 
extradition package, until he was apprehended. Of those 100 
requests, most of them have not been located or apprehended. We 
have cited them as priorities and keep giving them our top 10 
or top 15 so that they can focus on those, as our most viable 
cases, our most vicious defendants, and ones that perhaps we 
have location information on, to proceed against those first.
    The sheer number of requests is not the answer. Mexico has 
350 requests to us. We do not know any priority of their cases, 
something that we must know from them. Those requests are of 
people they don't know are in the United States, or they don't 
even know that they are alive, to some extent. We've asked for 
a priority of, who do you want as the worst offenders, that you 
believe are in the United States, that you have a viable case 
against today? Those are what we use; that's what they should 
use.
    Mr. Barr. I don't know what that has to do with anything.
    Ms. Warren. We'll push on that.
    Mr. Barr. Well, maybe we'll push on something.
    Mr. Souder. We are coming back for a second round, because 
a number of us had some additional questions.
    I also want to put in one good word for higher fences. In 
Nogales, the rooftops were such that they could crawl over. I 
was told, in the visit there, that we didn't build it higher 
for fear somebody might break their leg, or something. I have a 
grave concern that it's illegal coming across, whether it's 
immigration or drugs, and in some places higher fences might 
work, even though, then, they might tunnel under.
    Mr. Mica from Florida.
    Mr. Mica. Thank you, Mr. Chairman.
    To follow up some of the extradition questions, Chief 
Kruhm, the individual that was allegedly involved with the 
killing of Agent Barr was Jose Chavez, who told FBI 
investigators he was among the group that turned on Barr. I 
have a report here, April 1996, that we filed a request for 
Chavez' extradition. Where is Chavez these days, Mr. Kruhm?
    Mr. Kruhm. He's incarcerated in Mexico.
    Mr. Mica. How is that extradition coming?
    Mr. Kruhm. It has not occurred.
    Mr. Mica. This is from April 1996. He was killed over a 
year ago.
    How is that extradition coming, Ms. Warren?
    Ms. Warren. He is being proceeded.
    Mr. Mica. It's not a priority?
    Ms. Warren. It is a priority, but at the moment he is being 
proceeded against by Mexico. He has been already convicted on a 
narcotics trafficking charge and I think received 25 years for 
that. He will soon be charged with homicide charges in Mexico.
    Mr. Mica. Will we see him over here anytime?
    Ms. Warren. It depends on whether or not they can, in fact, 
file homicide charges. If they cannot, we need to press our 
extradition, if they cannot file the homicide charges.
    Mr. Mica. Is he on the priority list?
    Ms. Warren. A priority of the U.S. Government is those who 
murder law enforcement agents. This one has already been 
proceeded against in Mexico.
    Mr. Mica. Is it one of our priorities, though, in the 13 
that you were talking about?
    Ms. Warren. He is not on that list because he is already 
being proceeded against.
    Mr. Mica. So killing an agent of the U.S. Government, the 
Border Patrol, isn't among the 13 priorities?
    Ms. Warren. I told you, it's because they have already 
proceeded against him and he is supposed to be spending his 
time down there. I would like to continue that, yes, there are 
those murderers of law enforcement agents on our list, 
including the murderer of a DEA agent.
    Mr. Mica. Yes. Is that Camarena?
    Ms. Warren. No.
    Mr. Kruhm. That's Richard Faas, who was shot and killed 
just outside of Phoenix, AZ, in June 1994. The individual, 
Augustin Vasquez, is a fugitive. They have been unable to 
locate him in Mexico.
    Mr. Mica. Mr. Constantine, I'll get off of extradition for 
a second. Did you meet with Gutierrez?
    Mr. Constantine. Yes, I did.
    Mr. Mica. When did you meet with him?
    Mr. Constantine. On three occasions when he was in town 
with the attorney general from Mexico, once at a dinner that 
was hosted for him, in which the United States Government 
officials--it was for the attorney general of Mexico, Mr. 
Madrazo--at the embassy in Mexico, at a lunch at the Justice 
Department, and at a briefing at the DEA headquarters.
    Mr. Mica. So he was briefed here in Washington?
    Mr. Constantine. By the DEA and perhaps others, but 
definitely by the DEA.
    Mr. Mica. Well, you have something to do with DEA, don't 
you?
    Mr. Constantine. Yes. In fact, I was there the day of that 
briefing and introduced it.
    Mr. Mica. Now, I don't know if it should be the subject of 
this hearing, Mr. Chairman, and maybe it should be the subject 
of a closed hearing, but I think we need to find out what 
information was relayed at these briefings, and how much 
intelligence was transmitted to this individual who now has 
turned out to be up to his eyeballs in drug trafficking. So I 
think we need to come back and address that. I don't want to 
pursue the questioning.
    Mr. Constantine. I would be able to answer that in this 
format and be more than willing to.
    Mr. Mica. Did he meet with our agents in Mexico City also?
    Mr. Constantine. I'm sure he met with them from time to 
time, but I think you're talking about that briefing. I think 
it's important, in that there's misinformation out in the 
media, to get the actual information out.
    Mr. Mica. I think that that's important, but I think we 
should pursue it in a closed hearing, both that information and 
any other information that your agents discussed in Mexico City 
with him.
    Let me ask you a question about the military and moving the 
military. Last week, they were moving into the Southwest Border 
area, taking over some of the former drug enforcement civilian 
role, the Mexicans are; is that correct?
    Mr. Constantine. That's correct. The Federal drug 
enforcement agents in the Baja-Tijuana area have been removed 
from the region, sent back to Mexico City, and replaced by 
military personnel, according to newspaper accounts.
    Mr. Mica. I don't want to get into a lot of detail, but 
we've been working with some of the personnel in training and 
some other work with individuals who were going to be involved 
in the drug effort in Mexico. Are those individuals now 
involved with the military, or are there none of the U.S.-
trained individuals?
    Mr. Constantine. The individuals who have been dispatched 
to the Baja?
    Mr. Mica. By the Mexicans.
    Mr. Constantine. I would not know whether they have been 
selected, trained, or have any narcotics enforcement 
background.
    Mr. Mica. Ms. Warren, you talked about vetted units around 
the world and some of these drug hot spots. We had worked with 
some folks--I don't want to get into a lot of detail--but are 
any of the folks that we've worked with, are they out in the 
field, in the border, or are they located in Mexico City?
    Ms. Warren. I have no knowledge.
    Mr. Mica. You have no knowledge?
    Ms. Warren. No knowledge about who is in the Baja area now, 
of how they've been trained, by whom; I just don't know.
    Mr. Mica. What do you think the effectiveness of these 
folks will be in that area, switching over now?
    Mr. Constantine. Well, moving the military into a 
traditional civilian law enforcement, in any country, I think 
is very difficult. You have people who have been selected for 
one purpose in life, to serve in the military. They have been 
trained to perform military functions. Now to have the 
responsibility to conduct complex criminal investigations 
against some of the most sophisticated organized crime groups 
in the world, I think would be difficult, if not impossible.
    Mr. Mica. So are they taking a step forward or a step 
backward?
    Mr. Constantine. Well, it's tough for me to assess what's 
going into their decision, into their problems.
    Mr. Mica. But you're saying that they are now moving 
military in who aren't capable of conducting an investigation 
and pursuing these folks in the manner that a different agency 
could. So it sounds like you're saying it could be less 
effective.
    Mr. Constantine. That's a decision that would have to go 
from the Government of Mexico. My sense, in reading the 
newspapers, is that that decision is probably based on their 
lack of confidence in the civilian law enforcement institutions 
in narcotics investigations. If that's the reason they made the 
decision, they probably see it as a step forward.
    Mr. Mica. Just one final question. You talked about the 
break-up of the Cali Cartel, and you gave credit--I guess we 
give some of the credit to the national police chief and his 
brave efforts. Is there anything similar that's taken place in 
Mexico, where there's a break-up of a cartel? What percentage 
of drugs, marijuana, cocaine, heroin, are coming now through 
Mexico, and has there been any similar effort by the Mexican 
authorities, or do they have that capability?
    Mr. Constantine. Well, first, by drug group, first with the 
methamphetamine, virtually 90 to 100 percent of all the 
ephedrine and methamphetamine is coming through from Mexico. 
Black tar heroin, which is a product from Mexico, 100 percent. 
Cocaine is a figure that we estimate somewhere in the area of 
two-thirds. That fluctuates, Congressman, depending upon what--
they don't check with us, as you know, with their routes, but 
it is one of their priority routes.
    There have been individual arrests from time to time, but 
in my experience, in almost 3 years in this position and 
reviewing all of the records previously, I see no indication of 
a disruption of an organized crime family in a manner that 
would be familiar to us in law enforcement in the United 
States.
    Mr. Mica. There's no capability?
    Mr. Barrett. Regular order, Mr. Chairman.
    Mr. Souder. We'll come back, Mr. Mica.
    Mr. Constantine. My sense is, it's a mismatch between law 
enforcement agencies in a difficult situation and powerful 
organized crime syndicates.
    If I could just answer one--I would not want to leave 
misinformation out there, because there is too much 
misinformation out there. There was no classified or 
confidential information ever provided to the attorney general 
of Mexico or Gen. Gutierrez, who accompanied him, either in a 
briefing in DEA--that briefing was very similar to what was in 
my testimony here today in an open forum--and I've checked with 
the country attache in charge of our Mexico operations, no such 
information was provided to Gen. Gutierrez by DEA in Mexico 
City also.
    Mr. Souder. We will come back.
    Mr. Mica. Mr. Chairman, I have a unanimous consent request 
that was pending.
    Mr. Souder. Yes, from Mr. Barrett. That's who I was 
yielding to next.
    Mr. Barrett would like to make a comment.
    Mr. Barrett. I would remove my objection, although I would 
note that the document doesn't say who prepared it or why it 
was prepared. I have no objection.
    Mr. Mica. The document was provided by Mr. Gilman's 
committee to me.
    Mr. Barrett. Has it been prepared privately or by staff?
    Mr. Souder. The document will be entered into the record 
with that reservation, and if Mr. Mica can provide some 
additional information with it, that will help.
    Mr. Mica. By his staff.
    Mr. Barrett. I'm sorry, I didn't hear what you said. Did 
you say it was prepared by his staff?
    Mr. Mica. Yes, I believe it--or given to me by his staff.
    Mr. Barrett. OK. So you don't know who prepared it?
    Mr. Mica. I don't know who prepared it.
    Mr. Barrett. OK. Thank you.
    Mr. Mica. I will try to make that part of the record.
    Mr. Souder. Thank you.
    I had a couple additional questions. I know you've been 
here a long time, but we're at a very critical point, depending 
on the administration's decision and what we're looking at 
here, and particularly looking at the questions related to 
Mexico, per se.
    In response to an earlier question, and also to this 
question of pulling back the agents from the Tijuana area, my 
concern is--because what I understood you to say, Mr. 
Constantine, is that we assume that everything we shared with 
their government has been compromised, because we don't know 
any other way to measure what information got out, including 
potentially the names of DEA agents. Are we pulling agents out 
or replacing or in any way trying to protect the lives of our 
potentially comprised agents?
    Mr. Constantine. First of all, the assumption was, any 
information that was in the files of the INCD, which is a 
Mexican institution, we're making an assumption immediately 
that all of that information was compromised. Now, that would 
not be all of the information that's available to the Drug 
Enforcement Administration. There may be things so sensitive 
that we've not shared.
    As far as the identification of our agents in country, I 
assume that he was knowledgeable about that from his INCD 
headquarters. Now whether he sought that out purposely for any 
reason, I am not sure of that. We have not pulled any people 
out of there. The only adjustment we've made is for our people 
stationed in the United States, who formerly used to travel 
into Mexico on the binational task forces, about a month ago, I 
curtailed their activities into Mexico.
    The agents, as part of our country team, 35 or 36 of them, 
they have operated in a high-risk environment certainly since 
the death of Agent Camarena, and we take numbers of precautions 
which I wouldn't discuss publicly, but we feel comfortable we 
will continue those, and their supervisors are on alert.
    Mr. Souder. Do you also have concerns, given what media 
reports are starting to surface, about the areas of the two 
Governors, particularly Sonora, and the safety of our DEA 
agents there? I presume there they are not allowed to carry 
weapons, as well.
    Mr. Constantine. No, people who are stationed as part of 
the country team have adequate protections. The issue for us 
was that, about a year ago, working with both our supervisors 
along the border and Mexican law enforcement, we recognized 
that these gangs were bouncing back and forth across that 
border so frequently. We really needed to have a co-located 
unit of people with knowledge of both sides of the border.
    Those are the individuals who began on the task forces, 
first in Tijuana, then Juarez, and then in Monterrey. Those are 
the ones that Ms. Warren talked about. Now, what has happened, 
obviously, because of a protection issue, we have curtailed 
their activities and placed very strong security guidelines 
around their travel or activities.
    The secondary problem of that now comes that those very 
task forces would have reported into INCD headquarters in 
Mexico City. INCD headquarters in Mexico City is now, until 
we're disabused of that theory, an entity that has been 
corrupted at the very top.
    Mr. Souder. Do you have concerns about the Governors of 
Sonora or Morales?
    Mr. Constantine. I wouldn't comment in a public 
environment, because those are numbers of issues and reports 
that I'd have to do in a closed session.
    Mr. Souder. We may have to seek some additional 
information, because one of the core concerns here--because I 
remember when we met with President Zedillo, and he told me a 
personal story about his son being approached by drug dealers 
and couldn't believe that even his son had been approached, I 
know that he seems to have such a deep-hearted conviction on 
behalf of democracy and a desire to see that done as his 
accomplishment for Mexico.
    But we still have to ask the question of, given the fact 
that at least sources in Mexico, numerous sources, say that the 
Governor of Sonora was the person who advanced him politically, 
that he has been involved in a lot of this, and given the fact 
that we were so clearly misinformed about the head of their 
drug enforcement agency and a lot of the others, even down to 
not knowing that his chief staff person had been busted once 
before for suspected narcotics trafficking, how do we honestly 
know? I know Ambassador Jones said, if he's wrong about 
Zedillo, he gives up.
    On the other hand, how do we know? We're being asked to 
make a decision in Congress--I mean, I listened to the comments 
of, unless we work with a country, how can we influence them in 
the trade? That argument goes for Burma. That argument goes for 
Colombia. That argument goes, really, for any country, not just 
Mexico.
    Part of the question here is that we're taking it, roughly, 
on blind faith, when, in fact, he removed his attorney general. 
He's got a drug czar that was crooked. He's got police that you 
say up to 90 percent, in Tijuana and Baja, California, are 
corrupt. Yet in Colombia we don't see that.
    The President--even though I agree, and I don't want us to 
back off Colombia, but the double standard here is, how do you 
look at--he hasn't removed his attorney general; he hasn't 
removed Gen. Serrano. It's hard for us to understand almost a 
blind faith right now in the Government of Mexico. I 
understand, as Congressman Barr said, too, we understand the 
development of a country and the corruption of it. Five people 
along our border, compared to 90 percent in Tijuana being under 
question, is a substantial difference.
    When we were debating the NAFTA treaty in America, what I 
heard all over the country was, this was much like the early 
Articles of Confederation in America, where the different 
States were evolving, and in our relationship we were coming 
into a national country, and we were evolving a little bit like 
that with Canada, Mexico, and the United States. We had similar 
democracy, we had similar procedures and ways we handle justice 
and trade and things, and therefore we were becoming more equal 
partners.
    This type of thing really calls into question, in a lot of 
American citizens' minds, about whether, in fact, there is 
exactly parallel systems. If one system is evolving--and I have 
no doubt that everybody in Congress feels we are evolving--and 
we need to have strong relationships with Mexico on our border, 
and we have millions of Americans with both direct relatives 
and Hispanic descent commonalities.
    At the same time, you are not today documenting a country 
that is like our country, in their justice system, in their 
police system, in their defense system. In fact, we're having 
to take this on faith right now, a fairly blind faith. I mean, 
I'm open to any comments with that, but it has been a 
frustrating process for us.
    Then when we get down to, can we trust this person or not, 
I understand why it needs to be classified, but we're being 
asked to vote publicly on a very difficult matter. The American 
people, in effect, can't get some of this information, for 
reasons I understand, because we have classified briefings on a 
number of things, but it puts us in a very difficult position, 
too.
    Do you care to comment? You don't have to. If any of you 
want to.
    Mr. Constantine. Not really.
    Mr. Souder. OK.
    Mr. Mica.
    Mr. Mica. Let me go back to Ms. Warren again. So, in 
reading your testimony, it says, ``The Criminal Division's 
Narcotic and Dangerous Drug Section, has trained over 1,100 
officers and prosecutors, and expects to train another 1,500 in 
10 seminars by the end of fiscal year 1997.'' That's one of 
your projects?
    Ms. Warren. That's part of a Southwest Border Initiative. 
It is not just the prosecutors from the Criminal Division. The 
agents from DEA and Customs and FBI are part of that training. 
They train the prosecutors.
    Mr. Mica. As I understand it, a lot of the folks that are 
involved here in enforcement now are being replaced with the 
military?
    Ms. Warren. No, no, this is training of U.S. prosecutors. 
That's what that refers to.
    Mr. Mica. Do we have any program where we're training 
Mexicans, that you're involved in?
    Ms. Warren. We have plans for training of Mexican 
prosecutors. There has been training of investigators, for 
instance, in chemical controls and the identification of 
precursor chemicals, taking down of chemical labs. We have 
plans to train prosecutors in money laundering and asset 
forfeiture investigations.
    Mr. Mica. The ones that are cited here are all United 
States?
    Ms. Warren. United States, yes.
    Mr. Mica. But we're not able to extradite anyone for 
prosecution from the other side of the border?
    Ms. Warren. Well, no, we have extradited 13. If I could 
just take this moment to correct the record, I misspoke by 
saying that Chavez Laines, the killer of Jefferson Barr, was 
not on our list. He is on our list of extraditables, about 11 
or 12 priority cases, that list handed over to the Mexican 
foreign secretary last week by the attorney general.
    Mr. Mica. How much is this program costing, this dangerous 
drug training program, the domestic side?
    Ms. Warren. The domestic one, I would have to try and get 
an estimate of that cost. It is part of the ongoing in-service 
training for all of our prosecutors, and I think has had an 
enormous return, based on the cases they have been able to 
develop with the investigators in the Southwest Border 
Initiative.
    Mr. Mica. So that's one reason. So are you adding to the 
number of drug prosecutions in that area? If I looked at the 
statistics--now, I know, nationally, drug prosecutions the last 
4 years have dropped; is that correct?
    Ms. Warren. I think that is correct, the numbers. I would 
say that the stats alone don't tell.
    Mr. Mica. So if I look at these stats now, I'm going to see 
a dramatic increase in the number of prosecutions in the 
Southwest Border project?
    Ms. Warren. I don't think you will see such a dramatic 
increase in absolute numbers. What you will see an increase in 
is the level of the prosecution and the dismantlement of that 
part of the organization that worked in the United States. They 
are much better cases than we have brought before.
    Mr. Constantine. If I could contribute a little bit.
    Mr. Mica. Yes.
    Mr. Constantine. What's happened is, rather than just 
taking numbers and defendants unconnected, we've decided on a 
strategy to go for the leadership in all of the organizational 
structure as it exists in the United States.
    One of the cases that we refer to here is Zorro II, because 
it was the nickname of the major trafficker. We took down, on 1 
day, all of the major participants who had been sent into the 
United States from Colombia or Mexico to run the cocaine 
distribution system, all the way from Bellflower, CA, all the 
way across the country, down to the leadership of a crack gang 
in Rocky Mount, NC. That was 156 defendants. That was 90 
wiretaps and a huge investment in translation costs, 
prosecutors' time, affidavits. That 156 defendants may not look 
like a big number, but those are the people that you have to 
take out if you're going to go after an organized crime 
strategy.
    Mr. Mica. The net amount of cocaine, heroin, 
methamphetamine coming into the United States has been on the 
increase every year, and the number of deaths have been on the 
increase, domestic; is that correct?
    Mr. Constantine. The amount of cocaine coming into the 
United States, I can't tell you what the exact number of 
seizures is, because we go through the cultivation and then 
production. We figure there's about 800 to 850 tons of 
potential cocaine produced. We seize, somewhere in the world, 
either in Colombia, or in the interdiction area, or in seizures 
at the border, or seizures in the United States, or Highway 
Patrol officers in Florida, somewhere around one-third of that.
    So what happens is, the market is overproduced. An economic 
model just doesn't fit cocaine production or heroin production.
    Mr. Mica. But we're seeing more on the street, more 
trafficking.
    Mr. Constantine. Well, cocaine--strangely enough, heroin is 
the big problem in many places on the East Coast. Cocaine, 
hard-core abuse, has remained the same. Casual abuse changed 
dramatically after the death of Len Bias in 1986 and the 
attention drawn to it. It's probably stayed fairly constant.
    Mr. Mica. That's among adults.
    Mr. Constantine. Methamphetamine is a huge problem on the 
West Coast, a growing problem. On the East Coast of the United 
States, heroin, which was once 7 percent 25 years ago, is now 
95 percent pure. The Orlando area, many of my friends are 
chiefs of police, the sheriff of Orange County is a personal 
friend of mine, have been visited by numbers of young people. I 
think the overdose deaths are around 30 to 34 people over the 
last 12 or 15 months, people from middle class families using 
heroin at rave parties.
    We just held a major heroin conference about 2 weeks ago. 
We will be issuing a report within a month. That is a 
significant problem along the East Coast of the United States.
    Mr. Mica. Well, we have given you the assets and resources 
that you requested. The Border Patrol, we have given you some, 
put back some of the cuts you sustained, I guess, a couple of 
years ago, before we took charge of the Congress. Certainly, 
the Department of Justice has gotten the resources. I'm just 
not sure that they are being properly used or properly 
directed. Maybe what we've done hasn't worked. Maybe we need to 
be looking at some other things that will work.
    It seems to me the statistic, between 1985 and 1992, we 
reduced drug use, with law enforcement and interdiction and 
prevention, by 78 percent, when we had a different emphasis. 
Now I'm even more disturbed to hear the President today, with 
his plans for the future which haven't worked in the past, to 
be more of a repeat of the mistake that was made the first 2 
years, at least, almost 3 years of this administration. I guess 
that's a statement and not a question.
    Thank you. I yield back the balance of my time.
    Mr. Souder. Thank you, Mr. Mica.
    Mr. Barr from Georgia.
    Mr. Barr. Thank you, Mr. Chairman.
    Administrator Constantine, I think that in Ms. Warren's 
testimony she used the term ``fully engaged'' to describe DEA's 
activities in Mexico, that DEA is fully engaged.
    Ms. Warren. I did.
    Mr. Barr. I think it was just last year that, through this 
subcommittee and then through the Congress, there were funds 
appropriated to add 20 new DEA agents for Mexico. Has Mexico 
been asked to receive those additional agents?
    Mr. Constantine. We've asked that--there is what you would 
call--or preceded me, it occurred in the late 1980's or early 
1990's, I believe, a thing called the rules of the game that 
limited the number of DEA agents in Mexico to, I think, 38 or 
39 agents.
    We have asked to expand that ceiling for our country detail 
in Mexico by 6, to bring that up to 45. We then had asked that 
we could put three or four people in each of the binational 
task forces, each of the three, so we could come up to the 
figure of 20. We have not gotten an answer back on the six for 
the country team.
    The individuals who would be working in country on these 
binational task forces, the three or four to each of those 
details, the people are available. At this point in time, the 
issue is two things: one, security; second, trying to determine 
how much damage has been done by Gen. Gutierrez' compromising 
information.
    Mr. Barr. Is there a damage assessment team operating?
    Mr. Constantine. That's correct.
    Mr. Barr. Which agencies are part of that?
    Mr. Constantine. For the purposes of DEA, it's an internal 
audit being done of all of our agents to see what types of 
information may have been provided, what would be an issue for 
us. We would be dealing, obviously, first, with the safety of 
our own agents; second, the protection of any witnesses or 
informants. So that started the morning after his arrest.
    Mr. Barr. What about other agencies? Is Justice a part of 
that damage assessment team?
    Ms. Warren. We are not directly a part of that. The 
Administrator will provide a copy of the assessment to the 
Attorney General for her review.
    Mr. Barr. Might I respectfully suggest that this seems to 
be important enough for the Department of Justice to be a part 
of that damage assessment team. That's not a question; that's 
just a respectful, unsolicited suggestion. Is the FBI a part of 
that damage assessment team?
    Mr. Constantine. Not that I know of. There is only one FBI 
agent working in Mexico City, and on all drug issues, the DEA 
is the lead agency. So any investigations that would be 
involved and any information would be also involved in the DEA 
assessment.
    Mr. Barr. How about CIA?
    Mr. Constantine. I could not speak for them, Congressman.
    Mr. Barr. OK. Can anybody? Does anybody know whether they 
are part of assessing the damage that's been occasioned by this 
latest bout of corruption?
    Mr. Constantine. I couldn't answer that. I don't know.
    Mr. Barr. Does the Department know whether they are part of 
the damage assessment team?
    Ms. Warren. All I know is that several of the agencies are 
undertaking assessments at this time.
    Mr. Barr. Mr. Constantine, when you were talking a few 
moments ago about the numbers of agents, is that a question 
that has been posed to the Mexican Government, and they have 
not authorized or allowed the additional agents in place?
    Mr. Constantine. That's correct. The allocations of agents 
and assignment to Mexico was controlled by this agreement which 
was reached between the Government of the United States and 
Mexico in, I think, 1989 or 1991, where it was limited to 38 or 
39. Now, that has to be changed, obviously. The proposal has 
been made to change that and to increase that by six. We do not 
have an answer back yet.
    Mr. Barr. Mexico has not consented to that yet, not agreed 
to it?
    Mr. Constantine. We haven't got an answer back. They have 
not disagreed or agreed.
    Mr. Barr. I mean, they haven't agreed to it. We have asked 
them.
    Mr. Constantine. That's correct.
    Mr. Barr. Can your agents carry firearms in Mexico?
    Mr. Constantine. The agents who are assigned to the country 
team, as we call it, a country detail, country attache, those 
individuals have full protection. I would not publicly get into 
what all of those protections are.
    We do have an issue with agents who are stationed in the 
United States. They are stationed in the San Diego DEA office, 
the El Paso DEA office, and in Brownsville. Those agents were 
traveling across the border to be co-located with the INCD 
agents in these binational task forces.
    We became concerned for two reasons: one, there was a wave 
of assassinations of substantial criminal justice officials 
from the INCD that had begun 9, 10 months ago, and was almost 
at a fury pace early this fall. We also started to receive 
substantial threats against the lives of our agents who were 
traveling into those details.
    We didn't believe, in looking at the law and any of the 
existing policy, that there were adequate protections for them. 
They were in kind of a newly developed status. We laid out a 
proposal that they be provided the same protections as our 
agents working in country. Again, we have not gotten an answer 
back, formally, on that.
    I've seen things in the paper where it has been denied. 
Although, at a luncheon 2 weeks ago, the attorney general, Mr. 
Madrazo, said that they were looking at that and thought they 
could reach a solution on that issue. Last night I received a 
call at home from the attorney general of Mexico, and he 
indicated that he thought that they could find a solution to 
that, but presently we don't have any type of an agreement.
    Mr. Barr. Would these be things that we're talking about, 
providing adequate protection for our law enforcement 
personnel, be the sorts--and there are other ones--but would 
these be the sorts of concerns that you believe should be taken 
into account in determining whether or not Mexico meets the 
criteria for certification?
    Mr. Constantine. I have tried and been successful to this 
point in time, for 3 years, to indicate that I really don't 
comment on certification. I provide kind of a fairly narrow 
parameter, law enforcement, how I see it, to people who are 
policymakers in this town, and then I let them make their 
decisions on it. I give them candid, confidential advice.
    So the issues on certification, Congressman, I would have 
to request that I wouldn't speak on what I think should be 
included in certification, who should be certified, who 
shouldn't be certified, and what the status would be.
    Mr. Barr. Thank you. I appreciate your background on the 
specific protection items, as well as the increase in the 
number of agents down there. Can I presume or would you state 
that those are important concerns, from DEA's standpoint?
    Mr. Constantine. I think they are very important, 
Congressman.
    Mr. Barr. Thank you.
    Mr. Souder. I thank the gentleman from Georgia.
    I have a few closing questions I want to ask. Chief Kruhm, 
we heard earlier, in the second panel, about ranchers who were 
concerned about their safety and selling off land or being 
intimidated. Are you aware of that, and is it just in that area 
of Texas, or have you heard that in other places, as well?
    Mr. Kruhm. That allegation has been made at various points 
along the border, and we are working that issue jointly with 
the Department of Justice and DEA. All of the Justice 
components are working that issue, all along the border.
    Mr. Souder. Ms. Warren, I see you nodding your head.
    Ms. Warren. Yes, and it's not just Justice. The Department 
of Treasury is helping us on that same issue.
    Mr. Souder. Is some of it just fear because of what they 
are reading, or do you have some concrete cases you're actually 
pursuing, too, or are you not allowed to say that?
    Ms. Warren. We're looking into it with grave concern.
    Mr. Souder. OK. Mr. Constantine, I have a question about 
the El Paso Intelligence Center. Should they not have known 
what was going on with Gen. Gutierrez?
    Mr. Constantine. They are really a movement and detection 
facility. Their job is to find out information about the 
movement of narcotics into the United States and be able to, in 
some ways, provide information to either Customs people who are 
there, or the Border Patrol, or Immigration. It's a detection 
and monitoring program.
    It would really be difficult to ask them to know 
information about corruption, about an individual inside the 
military system of the Government of Mexico. If they had the 
information or they came across it in a wiretap, or if they 
came across it in some type of an informant, they then could 
provide that information. But, eventually, that would go to the 
head of DEA in Mexico City, who would provide it to the 
Ambassador, and then there would be some decision made on the 
part of the State Department.
    But it's not a designed role for the EPIC, the El Paso 
Intelligence Center.
    Mr. Souder. Is there any counterintelligence center that--
since you have to deal with different people, whether they be 
Governors of territories or police of the defense--I mean, we 
have a case of their person in charge of the drug issue who was 
on the payroll of the cartels, whose staff person had already 
been busted once, in a land where you've documented, and in 
your testimony you went through and said--you didn't get to 
read one of the written things you have.
    It would be akin, the assassinations, to three assistant 
U.S. attorneys, a special agent in charge of the DEA office in 
San Diego, the special agent in charge of the FBI office in 
Houston, the chief of police in San Diego. You see all these 
murders occurring, you know your agents are at risk, you know 
that the country is at risk, don't we have any 
counterintelligence agency that's trying to track something 
like this? Where was the slip-up?
    Mr. Constantine. Well, we do have information on the issues 
that you just talked about. We have units working, combined FBI 
and DEA, out of San Diego, who are working in that gang out of 
Logan Heights who access killers for the Arellano-Felix group. 
So we have informants. We have wiretap information. We select 
information from those sources that we get across--but, you 
know, I have to tell you that something doesn't always happen 
the way you'd like it to happen.
    If an informant comes to us and said, ``Look, the 
commandante in such-and-such Mexican Federal judicial police is 
corrupt, and I have this information,'' and the informant is 
reliable in the past and can be corroborated, we can do 
something with that information. Eventually, it will be put in 
an action group to try to make an arrest or try to lead to some 
type of punitive action, criminal or administrative.
    Someone who is a General in the military, a sense that 
somehow you are going to get that information, when all of 
their conversations, all of their meetings are taking place in 
the Government of Mexico, not inside San Diego County or Los 
Angeles, where we have the availability of wiretaps or we have 
the availability of informants--that's where we get our 
intelligence information.
    To get the information on an individual in Mexico, it would 
have to come, for the most part, from a duly designated Mexican 
law enforcement institution or internal affairs operation of 
the military of the Government of Mexico. DEA, just the nature 
of our role, would not be determining that information. We just 
talked of 38 agents in a country of 100-and-some million 
people. It's just an impossible task to ask them to find out 
that information. They don't have the tools available to them.
    Mr. Souder. It's hard for the average person--I mean, maybe 
there are too many movies and TV, where the FBI and the DEA and 
everybody finds people all the time. At the same time, you have 
planes buzzing around, you're getting tips. You're getting tips 
on boats that are coming in and along huge borders. You're 
getting tips on this person may be compromised; this person may 
be compromised.
    Here's a guy in charge of the whole thing. Are you saying 
there was nothing in the system that would have tipped--we have 
our drug czar praising him. It's embarrassing.
    Mr. Constantine. We looked everywhere. There was no 
information that we could corroborate, from an informant, from 
an investigation. No investigation conducted. We had two 
anonymous notes, over 6 years old, on the individual, that the 
agents at that point in time couldn't find any information to 
corroborate.
    Let me say this, if he was a General in the U.S. Army, I 
think we'd get him, and we'd be able to wrap him up pretty 
well. But we are, again, talking about the limitations that we 
have inside another country.
    Mr. Souder. Which I understand. I had asked you what kind 
of information, and Congressman Mica and others asked you, do 
you know--and we will ask him directly--but have you heard 
whether Gen. McCaffrey gave any lists of DEA agents or anything 
else in his discussion?
    Mr. Constantine. I've talked with him since then. He's 
indicated absolutely not. There was indication somewhere along 
the line that he had arranged the meetings and the briefings, 
that's totally untrue.
    What happened was, the attorney general from Mexico came 
in. He was new; he asked for a briefing on what were the drug 
trafficking issues in the world. We gave him a briefing. It was 
very general. It was like the testimony today. It was nothing 
even close to the types of briefings I've given for members of 
this committee.
    Mr. Souder. That's true of Gen. McCaffrey, too?
    Mr. Constantine. He was not there. No, that was just the 
attorney general of Mexico.
    Mr. Souder. But you don't know whether he's had any 
separate meetings?
    Mr. Constantine. Well, I'm sure he's had separate meetings, 
but he is not involved in operational activities, and he's 
really dependent on DEA or the FBI to provide him with the 
information for a briefing.
    Mr. Souder. Ms. Warren, you made the statement about the 
extradition of the one related to drugs, who was a Mexican and 
an American national, had dual citizenship. You said there was 
one other case of an extradition of somebody who was just a 
Mexican national. Was that drug-related or other issues?
    Ms. Warren. It was a child molestation case.
    Mr. Souder. So, at this point, we don't have any cases of 
extradition of a Mexican national only in drug issues?
    Ms. Warren. That's correct.
    Mr. Souder. In money laundering, how many arrests have been 
done in money laundering? You outlined some of the things where 
you hoped there was going to be progress. Have we seen any 
concrete evidence yet?
    Ms. Warren. They have a new law. They do not have their 
published regulations. Without current transaction reporting 
and suspicious activities reporting, it's very hard to build 
investigations. There are investigations being worked jointly 
with some U.S. agencies to try and build those cases down 
there. I know of no prosecutions to date, under their brand new 
law.
    Mr. Souder. I don't believe the scale of police corruption 
is even in the same league, and I think that's important, and 
we've attempted to clarify that. We have some money laundering 
problems in this country, too, and obviously a lot of that 
money is going through, and we'll continue to follow that. So 
none of us are trying to excuse anything that's wrong here, 
because we're going after it as aggressively as we can.
    Mr. Mica.
    Mr. Mica. Well, we're coming to a closing of the hearing, 
and I do want to extend to our DEA Director a continued 
invitation to work with the subcommittee. Now, I sit up here as 
a frustrated Member of Congress, because we want to do 
something about the drug problem. To me, it's our most serious 
national problem.
    I mean, when you have 80, 90 percent of the crimes in our 
communities are drug-related, we've packed our jails. We have 
1.8 million individuals in jail, and probably 75 percent of 
them are in there because of some drug-related crime. It's now 
affecting our kids. Cocaine may be down, but it's up among the 
youth. The same thing with marijuana and methamphetamine and, 
most scary, heroin.
    In the last 2 years, since we took control of the Congress, 
we made a commitment to give each of these agencies whatever 
resources they needed, whatever resource you need in DEA, 
Department of Justice, the Border Patrol folks. This is just 
the beginning of a new session of Congress. Whatever you need, 
we will get, but when we come back, I want to hear that the 
prosecutions have increased, that the seizures, or whatever, 
the enforcement, you know, is working. Whatever it takes.
    I don't know what it's going to take to get Mexico's 
cooperation. If the President certifies them, there are some of 
the members of the committee and Congress who may work for 
congressional decertification of that country. That's how 
serious we think it's gotten. With 70 percent of the drugs 
coming through this channel now, and what you told us here 
today, they are foot-dragging.
    We've heard the comments about this rule is coming, this 
law is coming, this training is coming, this enforcement is 
coming, and the end of corruption is coming, and we don't see 
it. So we will do anything. We will meet with you night or day. 
We'll give you whatever resources, if it takes hundreds of 
millions or billions, it will be there. We want your advice and 
your counsel to make this work.
    Finally, to our DEA Director, we met some real modern day 
heroes. Our subcommittee, when we traveled to South America, 
the first 2 years I served in Congress, when their funds were 
gutted and there was a different direction in policy--which 
isn't your fault, you just respond--some of those folks even 
took funds out of their own pockets to make those programs 
work, and kept things going, some of them back in the jungles, 
or wherever.
    So they are real heroes, and we don't want to detract from 
what good work they have been doing. But we're here to work 
with you. We'll be critical, if what you're doing doesn't work, 
but we do want to hear from you.
    Also, our friends with the Border Patrol, whatever 
resources you need. I know we gave you a net increase in this 
last year. This entire committee worked. Speaker Gingrich 
assigned Mr. Hastert initially as the liaison to the 
leadership, and now he chairs this subcommittee. So we, as a 
new majority, are committed to whatever resources it takes in 
working with you.
    Mr. Chairman, I thank you for yielding to me and for 
allowing me to make that statement. Thank you for a good 
hearing.
    Mr. Souder. I see Chairman Hastert has joined back with us. 
Do you have anything in closing?
    Mr. Hastert. Thank you.
    I'm sorry, Tom and others, I make the apology for not being 
able to be here. I was in another meeting, part of those 
meetings with leadership and the Speaker, part of it was trying 
to get a commitment to make sure that we could move forward and 
make sure that you have those things that you need to carry on. 
Again, my apology. I'll read your testimony tonight, but I 
apologize for not hearing it in person.
    This War on Drugs is something that just is not something 
for the TV cameras or the press. It's about our kids; it's 
about our communities, about our families. You're on that front 
line. We want to make sure that you have the wherewithal for 
the things that you have to do.
    We want to let you know that we're in this fight, too, and 
we're in it to the end. That's a commitment that we have on the 
whole spectrum of drug enforcement, treatment, and working with 
Rob Portman in trying to make sure that we work on both sides 
of this issue and do the things that we have to do.
    I would just second John Mica's statement. We know that the 
heroes are there, and we've seen the work that you do. We know 
the jeopardy of what your troops and what your folks are into 
day in and day out, and we just want to make sure that you have 
the wherewithal to do the jobs that you have to do.
    That being said, this is just the second in a whole string 
of probably 20-some hearings that we're going to have in this 
area, and we will look forward to working with you, meeting 
with you personally, carrying on that dialog so that we know 
things. If you have a problem, we hope that you would give us a 
call so that we can follow through.
    Again, I apologize for not being here for a great part of 
this hearing, but sometimes you get strung out in many 
different ways. So we appreciate it and yield back to our very 
able chairman.
    Mr. Constantine. Congressman, on behalf of all the agents 
that you met who are heroes, and Doug's people, and Mary Lee's, 
your support means a great deal to us. It gets kind of tough 
sometimes. You feel like you're pushing a rock. If you're 
frustrated, you can imagine how some of these kids are night 
and day. But the fact that people in Congress take the time for 
these hearings and say the nice things that you have said, we 
relay that, and it means a great deal to us.
    Mr. Hastert. If I could, Mr. Chairman, one of the reasons I 
think we understood better, we were very fortunate last year to 
take a trip into the interior of South American countries where 
the real work was being done. We had one of your able 
assistants, Craig Chretien, with us a good part of that time. 
We saw and were able to hear the stories first-hand of what 
goes on. That was very helpful.
    I make that invitation to all of you. When we can see 
what's happening and put people and faces with actions being 
done, that helps us do our job, as well. So we appreciate that 
effort.
    Mr. Souder. We thank you for the many hours you spent here 
this afternoon. It's a testimony to your commitment that you're 
willing to come up here, on the more mundane side of this, but 
to help educate us so we can make good decisions here and help, 
through reaching out to others, through the media that's here 
today, and educate the American people.
    It's not a war that's going to suddenly disappear; it's 
going to go on. It has to have every angle of it, and this is 
one of the important, critical angles, which is enforcement, 
and particularly as it relates to our decisions on 
certification and what blending of procedures we may do, and to 
call attention to the problems we're having in the drugs coming 
in.
    We are all hearing from our county sheriffs. It's not an 
issue that has passed us by at the local level, because 70 to 
80 percent of all the crime is drug and alcohol related. There 
isn't a one of us here who doesn't have--young people are 
particularly the most dramatic, when you see kids shooting each 
other over the money that they can make on drugs or in the car 
wrecks, and just stupid stuff that we see when somebody gets 
high.
    A combination, particularly, of marijuana and alcohol is 
potent, but the heroin that we heard, in Florida, with the 
deaths, the crack that we have in Fort Wayne that's been a 
continuing problem. I know that many of the schools are getting 
more aggressive, but it's a sad commentary that my son, in high 
school, in a suburban high school, that historically hadn't had 
as much of a problem, now has drug dogs going through.
    Last week, he told me the story about he was not feeling 
well and was in the restroom, and the teacher hauled him out of 
the restroom into the room because the drug dogs were going 
through. But, you know, he earlier had told me he couldn't get 
into the restroom without smelling marijuana. Better to have 
drug dogs going through than to have that problem. This isn't 
just a low-income problem or a high-income problem; it is 
pervasive in school after school.
    You are on the front lines, and we thank you. Because while 
we have to have a demand reduction side, the fact is, in Fort 
Wayne and other cities around this country, if the supply goes 
to huge levels and it's flooded, and the prices drop down, and 
the purity is there, and they mix it with different drugs, it 
is literally death to so many young people that we have to try 
to reduce the supply coming in, in addition to the demand 
reduction. Otherwise, it will just overwhelm the poor teachers 
and those who are trying to preach what's right, because of the 
profits that are made.
    In our foreign policy, we have to make decisions not just 
based on money and what's financially in the best interest of 
the United States, but we have to realize we're in a battle 
with a substance that destroys our families and our kids.
    I thank you, once again, for all your time.
    Mr. Constantine. Thank you, Congressman.
    Mr. Souder. With that, the hearing stands adjourned.
    [Whereupon, at 5:20 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
